<html>
<title> - EXAMINING BIPARTISAN BILLS TO PROMOTE AFFORDABLE HOUSING ACCESS AND SAFETY</title>
<body><pre>[Senate Hearing 116-125]
[From the U.S. Government Publishing Office]






  EXAMINING BIPARTISAN BILLS TO PROMOTE AFFORDABLE HOUSING ACCESS AND 
                                 SAFETY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   ON

CONSIDERING BIPARTISAN LEGISLATION INTRODUCED DURING THE 116TH CONGRESS 
THAT IS INTENDED TO EXPAND ACCESS TO AFFORDABLE HOUSING AND/OR IMPROVE 
    THE SAFETY CONDITIONS WITHIN CURRENT FEDERALLY ASSISTED HOUSING

                               __________

                            NOVEMBER 7, 2019

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs



              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                Available at: https: //www.govinfo.gov/



                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
39-566 PDF                 WASHINGTON : 2020 





















            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      MIKE CRAPO, Idaho, Chairman

RICHARD C. SHELBY, Alabama           SHERROD BROWN, Ohio
PATRICK J. TOOMEY, Pennsylvania      JACK REED, Rhode Island
TIM SCOTT, South Carolina            ROBERT MENENDEZ, New Jersey
BEN SASSE, Nebraska                  JON TESTER, Montana
TOM COTTON, Arkansas                 MARK R. WARNER, Virginia
MIKE ROUNDS, South Dakota            ELIZABETH WARREN, Massachusetts
DAVID PERDUE, Georgia                BRIAN SCHATZ, Hawaii
THOM TILLIS, North Carolina          CHRIS VAN HOLLEN, Maryland
JOHN KENNEDY, Louisiana              CATHERINE CORTEZ MASTO, Nevada
MARTHA MCSALLY, Arizona              DOUG JONES, Alabama
JERRY MORAN, Kansas                  TINA SMITH, Minnesota
KEVIN CRAMER, North Dakota           KYRSTEN SINEMA, Arizona

                     Gregg Richard, Staff Director

                Laura Swanson, Democratic Staff Director

                          Matt Jones, Counsel

           Beth Cooper, Democratic Professional Staff Member

           Megan Cheney, Democratic Professional Staff Member

                      Cameron Ricker, Chief Clerk

                      Shelvin Simmons, IT Director

                    Charles J. Moffat, Hearing Clerk

                          Jim Crowell, Editor

                                  (ii)





















                            C O N T E N T S

                              ----------                              

                       THURSDAY, NOVEMBER 7, 2019

                                                                   Page

Opening statement of Chairman Crapo..............................     1
    Prepared statement...........................................    24

Opening statements, comments, or prepared statements of:
    Senator Brown................................................     2
        Prepared statement.......................................    25

                               WITNESSES

Ivory N. Mathews, Interim Executive Director, Housing Authority 
  of the city of Columbia, South Carolina........................     4
    Prepared statement...........................................    26
    Responses to written questions of:
        Senator Warren...........................................    47
        Senator Cortez Masto.....................................    47
Mark Yost, President and CEO, Skyline Champion Corporation, on 
  behalf of the Manufactured Housing Institute...................     6
    Prepared statement...........................................    33
    Responses to written questions of:
        Senator Warren...........................................    48
        Senator Cortez Masto.....................................    50
        Senator Sinema...........................................    57
Peggy Bailey, Vice President for Housing Policy, Center on Budget 
  and Policy Priorities..........................................     7
    Prepared statement...........................................    41
    Responses to written questions of:
        Senator Brown............................................    57
        Senator Warren...........................................    58
        Senator Cortez Masto.....................................    59

              Additional Material Supplied for the Record

Letter submitted by the American Academy of Pediatrics...........    61
Statement submitted by the Health Justice Advocacy Clinic, 
  Columbia University Law School.................................    62
Letter submitted by the National Association of Realtors.........    70
Letter from the Next Step Network, submitted by Chairman Crapo 
  and Senator Cortez Masto.......................................    72
Thank you letter to Senator Brown................................    73
Letter submitted by the National Low Income Housing Coalition....    80
Letter submitted by Prosperity Now...............................    82
Letter submitted by the National Housing Law Project.............    83

                                 (iii)

 
  EXAMINING BIPARTISAN BILLS TO PROMOTE AFFORDABLE HOUSING ACCESS AND 
                                 SAFETY

                              ----------                              


                       THURSDAY, NOVEMBER 7, 2019

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:02 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Mike Crapo, Chairman of the 
Committee, presiding.

            OPENING STATEMENT OF CHAIRMAN MIKE CRAPO

    Chairman Crapo. This hearing will come to order.
    Today the Committee will receive testimony from leaders in 
the housing community on bipartisan opportunities in this 
Congress to expand access to affordable housing, to improve the 
safety conditions within current federally assisted housing, 
and to consider how we might better target some of our existing 
housing resources to meet unaddressed need.
    Welcome to our witnesses, and thank you for being here and 
taking the time to be with us for this important discussion.
    Joining us today are Ivory Mathews, interim executive 
director of the Housing Authority of Columbia, South Carolina; 
Mark Yost, president and chief executive officer of the Skyline 
Champion Corporation; and Peggy Bailey, vice president for 
housing policy at the Center on Budget and Policy Priorities.
    For purposes of today's hearing, we are focused on 
examining three bipartisan pieces of legislation in particular 
that have been introduced in the 116th Congress.
    S. 2160, the CO ALERTS Act, which was introduced in July by 
Senators Scott and Menendez and has the support of five 
Republicans and five Democrats on this Committee;
    S. 1804, the HUD Manufactured Housing Modernization Act, 
which was introduced in June and has five bipartisan 
cosponsors, including Senators Cortez Masto, Scott, Cramer, and 
Smith;
    And H.R. 4300, the Fostering Stable Housing Opportunities 
Act, which has bipartisan interest in the Senate and is moving 
quickly through the House of Representatives on a strong 
bipartisan basis.
    The CO ALERTS Act would require the installation and 
maintenance of carbon monoxide alarms in most forms of 
federally assisted housing, in any dwelling unit containing a 
fuel-burning appliance, fireplace, furnace, or enclosed garage.
    Currently, the majority of federally assisted housing 
programs have no such requirement, despite similar requirements 
in 37 States and the District of Columbia.
    At least 13 individuals living in federally assisted 
housing have died due to carbon monoxide poisoning since 2003, 
including 4 in the past year.
    In April, Secretary Carson announced that HUD would 
undertake a rulemaking process to establish such a requirement 
across all of HUD's public housing and rental assistance 
programs.
    This bill would also require the HUD Secretary to provide 
guidance to the public housing agencies on how they can better 
educate tenants on health hazards in the home.
    The HUD Manufactured Housing Modernization Act would 
provide confirmation to State and local jurisdictions who 
receive HUD funding through programs like the Community 
Development Block Grant or HOME Investment Partnerships Program 
that manufactured housing is an eligible affordable housing 
option for which communities can receive public funding for 
construction and repair.
    In other words, local jurisdictions would have a broader 
menu of options available as they seek to meet the unique 
affordable housing needs of their community.
    The Fostering Stable Housing Opportunities Act was advanced 
unanimously out of the House Financial Services Committee in 
September and awaits floor consideration.
    It would authorize HUD to allocate vouchers under its 
Family Unification Program more directly to any public housing 
agency that requests an allocation in order to provide timely 
assistance to an eligible youth who is aging out of foster care 
and at risk of losing their safety net overnight.
    The bill would also extend the length of a family 
unification voucher by up to 24 months for eligible youth who 
are either participating in HUD's Family Self-Sufficiency 
Program, working toward a degree, or are participating in a 
career pathway.
    These individuals would also be eligible for any additional 
supportive services made available in connection with any 
housing assistance program of the agency that provides the 
voucher.
    I commend HUD and Secretary Carson for their ongoing work 
on a number of the issues we will discuss today, including the 
forthcoming rulemaking on carbon monoxide alarms and HUD's new 
``Foster Youth to Independence'' initiative.
    Each of the three bills we are examining today have been 
thoughtfully put together and have strong bipartisan support.
    I look forward to hearing from our witnesses on these 
legislative proposals, and I also look forward to working with 
Members of the Committee to identify other items with 
bipartisan support in the affordable housing space and 
elsewhere.
    Senator Brown.

           OPENING STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Chairman Crapo. Thanks to the 
three witnesses for your contributions on these issues.
    I would like to start by taking a moment to acknowledge and 
remember the passing of one of our former colleagues, Senator 
Kay Hagan of North Carolina. This is our first hearing since 
she passed away. She served well on this Committee in her 6 
years in the Senate, and I just want her family to know that we 
think often of her.
    Mr. Chairman, I have often said that the ``housing'' part 
of this Committee's name does not get the attention it should. 
Today's hearing is an important, but small, step toward giving 
the affordable housing crisis we have in this country the 
attention it deserves.
    Right now, nearly 11 million households spend more than 
half their income on housing. That is one out of four people 
who rent. And seven of the ten fastest-growing jobs do not pay 
enough to afford a one-bedroom apartment.
    It is not an urban problem; it is not a rural problem; it 
is not a small-city problem. It hits nearly every community in 
our great country.
    Instead of working to solve this crisis, the Trump 
administration is making it worse--proposing deep cuts to the 
HUD budget, dismantling fair housing protections, advocating 
for a housing finance system that would make mortgages more 
expensive and harder to get.
    Fortunately, Members on this Committee are taking some 
steps to address some of the challenges we face. As the 
Chairman said, we will look at this bipartisan legislation to 
address three unique housing issues.
    The HUD Manufactured Housing Modernization Act, introduced 
by Senator Cortez Masto and Senator Scott--thank you both--
would require communities to consider manufactured housing as 
they develop strategic plans to address local housing and 
community development needs with Federal grants.
    Manufactured housing is home to 22 million people and meets 
critical affordable housing needs across the country, a lot of 
them in my State of Ohio.
    Senator Menendez and Senator Scott's CO ALERTS Act responds 
to two tragic deaths from carbon monoxide poisoning in HUD-
assisted housing earlier this year.
    No one should have to fear that her home is going to poison 
her. Their bill would finally require carbon monoxide detectors 
in all federally assisted units that have CO risk to prevent 
more of these preventable deaths.
    It would take a step toward ensuring that everyone, no 
matter their income, can be safe.
    Finally, we will discuss the need for a program to address 
the housing needs of young people exiting foster care across 
the country.
    Twenty thousand young people ``age out'' of foster care 
every year. Think about the challenges that they face. All of a 
sudden you are on your own; you do not have the same family 
safety net to fall back on that others may have. You are trying 
to find a job, or you are trying to enroll in school. Many face 
housing instability; up to one-third will experience 
homelessness at some point during this transition.
    Jeremy from Hamilton County, Ohio, Cincinnati, shared with 
my office that he entered foster care at 10; he aged out at 18 
with no permanent home. He entered college, found himself 
homeless during college breaks. Imagine. Imagine. Jeremy 
persevered. He became an advocate for others because no young 
people should have to experience what he did.
    Ohio's foster care youth, alumni, and allies set out to 
solve this problem. They put forth the ideas that became the 
bipartisan Fostering Stable Housing Opportunities Act so that 
foster care alumni nationwide can have a place to call home. 
This legislation has the support of 100 organizations and 
55,000 current and former foster youth.
    Congresswoman Dean introduced this bill in the House; this 
week, Senator Grassley and I, with a big assist from Senator 
Reed, introduced this bill in the Senate.
    It provides additional resources in more communities, and 
it encourages local housing and child welfare agencies to work 
together to serve our young people.
    This is just the first step.
    Carbon monoxide is not the only way people are poisoned in 
their homes. There are many health hazards in homes across this 
country, especially in old housing stock, in places like 
Appalachia and inner-city Cleveland. There are severe housing 
shortages in urban and rural areas and in Indian Country. We 
face expiring assistance contracts on thousands of affordable 
units in rural communities. We see a growing need for 
affordable senior housing options.
    We have to tackle this crisis from all sides. Corporations, 
frankly, are not paying workers enough to afford a place to 
live. On the other side, we need to create more safe, 
affordable homes. I am glad that the word ``housing'' is making 
its way back into the title of this Committee, Senate Banking, 
Housing, and Urban Affairs.
    Thanks, Mr. Chairman.
    Chairman Crapo. Thank you, Senator Brown.
    I will indicate right now that I may have to leave to go to 
a vote in the Judiciary Committee on a markup that we are 
holding. Unfortunately, we seem to double up our hearings quite 
regularly around here, and so I apologize at the outset if I 
have to step out rapidly.
    With that, we will now proceed to the witnesses' opening 
statements. First of all, your written testimony has been 
entered into the record, and I encourage you to each try to 
wrap up your initial comments in 5 minutes as we have got a 
clock there in front of you. We want the Senators to have time 
for their questions. And I always remind my colleagues to pay 
attention to your 5-minute time requirements as well.
    With that, Ms. Mathews, you may proceed.

  STATEMENT OF IVORY N. MATHEWS, INTERIM EXECUTIVE DIRECTOR, 
   HOUSING AUTHORITY OF THE CITY OF COLUMBIA, SOUTH CAROLINA

    Ms. Mathews. Chairman Crapo, Ranking Member Brown, and 
Members of the Committee on Banking, Housing, and Urban 
Affairs, thank you for the opportunity to testify during 
today's critically important hearing in support of the CO 
ALERTS Act of 2019.
    My name is Ivory Mathews, and I am the interim executive 
director of the Housing Authority of the city of Columbia, 
South Carolina. Founded in 1937, Columbia Housing currently 
provides housing assistance to over 6,000 families in Richland 
County. I am here today to support the CO ALERTS legislation. 
The bill ensures families living in federally assisted housing 
are safe by requiring carbon monoxide alarms in Section 202, 
Section 811 public housing, and Section 8 housing in accordance 
with the International Fire Code.
    I would like to begin this testimony by honoring Calvin 
Witherspoon, Jr., and Derrick Caldwell Roper who lost their 
lives as a result of carbon monoxide poisoning on January 17, 
2019, at the Allen Benedict Court public housing community in 
Columbia. Our deepest sympathies are with the Witherspoon and 
Roper families, and we are here today in memory of these 
individuals.
    On January 18, 2019, following the deaths of Mr. 
Witherspoon and Mr. Roper, over 400 Allen Benedict Court 
tenants were evacuated from their homes out of an abundance of 
caution. An emergency relocation plan was implemented to secure 
replacement housing for the families and to minimize, to the 
greatest extent possible, the hardships faced by the families 
who were being permanently displaced.
    Columbia Housing worked diligently to assess and meet the 
individual needs of each family. All residents were offered the 
option of being temporarily housed at area hotels until 
permanent housing was found.
    The health and safety of our residents remained our highest 
priority during this time. Columbia Housing partnered with the 
South Carolina Association of Social Workers to provide 
residents with free behavioral health sessions that would help 
to offset day-to-day stressors associated with their emergency 
relocation. Wrap-around services were also provided by city and 
county governments to help with associated costs and 
inconveniences like laundry services, transportation to places 
of worship, transportation to doctor's appointments, food 
preparation, and after-school activities. Donated cash, gift 
cards, volunteer hours, goods, and services were provided by 
area colleges and universities, social groups, sororities and 
fraternities, faith-based communities, and private citizens.
    After the emergency relocation, Columbia Housing worked 
diligently to ensure that the impacted families were quickly 
moved to permanent housing. Housing options provided to 
families included other available public housing units and 
housing choice vouchers to secure permanent housing in the open 
market in efforts to eliminate any rent burden on the families.
    All costs associated with the moves were paid by Columbia 
Housing. We remain grateful for the outpouring of support 
received from the community and the South Carolina HUD Field 
Office.
    Additionally, Columbia Housing installed carbon monoxide 
detectors in its occupied public housing units and required 
carbon monoxide detectors in privately owned Section 8 units. 
The CO ALERTS legislation would make it possible for other 
housing authorities across the country to do the same.
    Moving forward, it is the desire of the city of Columbia 
and Columbia Housing to transform the Allen Benedict Court 
community. Built in 1939, Allen Benedict Court consists of 244 
townhome units in 26 buildings on a 15-acre site located 
adjacent to historically black educational institutions, 
Benedict College and Allen University.
    Unfortunately, like many other housing authorities with 
older public housing property, we do not currently have the 
financial resources to move forward with the redevelopment of 
Allen Benedict Court. Today there is an estimated $70 billion 
backlog of capital needs for the public housing stock 
nationwide which continues to grow at approximately $3.5 
billion per year. This backlog includes many health and safety 
items. Additional funding is needed to address these issues.
    Chairman Crapo, Ranking Member Brown, Members of the 
Committee on Banking, Housing, and Urban Affairs, I am honored 
to have had the opportunity to testify before the Committee and 
provide a perspective on the importance of the CO ALERTS Act of 
2019. It is my pleasure to answer any questions you may have.
    Senator Brown [presiding]. Ms. Mathews, thank you so much.
    Mr. Yost.

  STATEMENT OF MARK YOST, PRESIDENT AND CEO, SKYLINE CHAMPION 
  CORPORATION, ON BEHALF OF THE MANUFACTURED HOUSING INSTITUTE

    Mr. Yost. Thank you, Chairman Crapo, Ranking Member Brown, 
and Members of the Committee. My name is Mark Yost. I am 
president and CEO of Skyline Champion. We have 65 years of 
homebuilding experience with 38 manufacturing facilities 
throughout the United States and in Canada. Skyline Champion 
employs over 7,000 employees and is one of the largest 
homebuilders in North America, producing a wide variety of 
manufactured and modular homes, park-model RVs, and modular 
buildings.
    I appear before you today on behalf of the Manufactured 
Housing Institute where I serve on the board of directors and 
as vice chairman of MHI's National Modular Housing Council. MHI 
is the only national trade organization that represents all 
segments of the manufactured housing industry.
    Manufactured housing is the largest form of unsubsidized 
affordable housing in the United States and the only type of 
housing built to Federal construction and safety standards. 
Today 22 million people live in manufactured homes, and in 
2018, we produced nearly 100,000 homes or approximately 10 
percent of single-family housing starts.
    While new site-built homes are generally priced above 
$200,000, manufactured homes are often priced below $100,000. 
As a result, manufactured housing accounts for 80 percent of 
new home starts under $150,000.
    My testimony today is focused on Senate bill 1804, the HUD 
Manufactured Housing Modernization Act of 2019. MHI strongly 
supports S. 1804 and commends Senators Cortez Masto, Scott, 
Smith, Cramer, Young, and Tester for coming together to 
introduce this bipartisan bill. The bill requires localities 
receiving CDBG, HOME, Housing Trust Fund, and McKinney-Vento 
homeless funds to appropriately include residential 
manufactured housing in their comprehensive housing 
affordability strategies and community development plans, also 
referred to as their ``Consolidated Plans.''
    The adoption of this legislation would break down barriers 
to affordable housing by increasing the focus on manufactured 
housing. As you know, manufactured homes serve many housing 
needs across the range of communities, from both rural areas to 
metropolitan areas. Unfortunately, what we see nationwide is a 
growing number of State and local restrictions that 
discriminate against people and families who seek the dream of 
home ownership through manufactured housing.
    HUD called attention to these discriminatory practices in 
its September Housing Finance Reform Plan, noting, and I quote, 
``Policies that exclude or disincentivize the utilization of 
manufactured homes can exacerbate housing affordability.'' In 
today's age, we do not need to exacerbate the problem of 
housing affordability. We need to solve the problem of housing 
affordability in the country.
    S. 1804 is crucially important to this because localities 
allocate their CDBG and HOME funds, which nationally are about 
$4.5 billion per year, based on the annual plans, and in turn 
are based on the comprehensive plans done locally and 
incentivizing them to use affordable housing. The best form of 
affordable housing in the country that is unsubsidized is 
manufactured housing--which is critical to this.
    My written testimony includes other suggestions for the 
Committee regarding overcoming zoning and land planning 
policies that either limit or prohibit the placement of 
manufactured products. HUD has preemption authority under the 
Manufactured Housing Construction Safety Standards Act. This is 
a statutory mandate to intervene when State or local regulatory 
requirements are inconsistent with Federal construction 
standards for manufactured homes.
    While HUD occasionally uses its authority to pursue 
individual cases, I would ask that the Senate encourage HUD to 
better enforce its preemption authority. This would galvanize 
HUD's statutory obligation to facilitate the availability of 
affordable homes.
    In closing, I thank the Committee today for your invitation 
and providing me the opportunity to share ideas of how we can 
prioritize the importance of manufactured housing when it comes 
to addressing the shortage and crisis of solving the affordable 
housing crisis in the country.
    Again, I thank you, and I look forward to answering your 
questions.
    Senator Brown. Thank you, Mr. Yost.
    Ms. Bailey, welcome.

 STATEMENT OF PEGGY BAILEY, VICE PRESIDENT FOR HOUSING POLICY, 
             CENTER ON BUDGET AND POLICY PRIORITIES

    Ms. Bailey. Thank you. Chairman Crapo, Ranking Member 
Brown, and Members of the Committee, thank you for the 
opportunity to testify today. I am Peggy Bailey, vice president 
for housing policy at the Center on Budget and Policy 
Priorities. The center is a nonpartisan, nonprofit policy 
institute that conducts research on a range of Federal and 
State policies affecting low- and moderate-income families. We 
believe that Congress can take three steps to improve access to 
housing and supports for youth leaving foster care.
    First, pass H.R. 4300, the Fostering Stable Housing 
Opportunities Act of 2019, which was recently introduced by 
Senators Brown and Grassley and that has the support of over 
100 organizations representing over 55,000 foster youth from 
across the country. This work has been spearheaded by Foster 
Action Ohio, an organization that is led by foster care alumni, 
who not only supports the legislation but played a central role 
in the designing and drafting of the bill.
    Second, accept the proposed funding increases in the Family 
Unification Program targeted at foster youth that are included 
in both the House and Senate 2020 appropriations bills.
    And, third, protect LGBTQ youth from discrimination and 
ensure their access to housing and social services supports.
    Mr. Chairman, 75 percent of households eligible for Federal 
rental assistance do not get it due to limited funding. 
Families may wait years to receive assistance, and an 
overwhelming demand has prompted most housing agencies to stop 
taking applications. Youth who leave foster care are 
particularly vulnerable, and they are disproportionately at 
risk of homelessness and housing instability.
    Of the 400,000 or so children in foster care, 20,000 age 
out each year. These young adults often have limited or no 
family financial or emotional support. They can struggle to 
continue their educations or get jobs, and if they get jobs, 
which most of them do, they are often paid low wages.
    Subpopulations of these youth face additional burdens. 
Black or Hispanic youth, who are over-represented in foster 
care, may face racism and discrimination when trying to access 
housing, jobs, and educational supports. And LGBTQ youth are 
also over-represented in the foster care system and face unique 
challenges, like job discrimination and trauma that can be 
harder to overcome if they are uncertain about how they will 
afford a place to live.
    About one in four foster youth who are 21 report they have 
been homeless at least once during the prior 2 years, and as 
many as one in three experience homelessness by age 26.
    Some State agencies with some Federal funding and oversight 
stand in for parents who cannot care for their children. 
Evidence shows and, I am sure, personal experience by many here 
today validates that most American parents contribute to their 
children in various ways, including helping pay for housing 
well past 18 and even 21. It is not unreasonable to think 
foster youth need similar help.
    Young people who have left foster care are eligible for 
housing choice vouchers, but there is a severe shortage of 
vouchers overall. The Department of Housing and Urban 
Development makes a small pool of vouchers, known as Family 
Unification Program or FUP vouchers, available to State and 
local housing agencies that partner with child welfare agencies 
to help at-risk youth. But the geographic reach of FUP vouchers 
is limited. Only one out of every eight of the more than 2,200 
housing agencies nationwide are authorized to administer them. 
And nearly 20,000 FUP vouchers that are in use right now go to 
only 1,000 former foster youth. Understandably, most FUP 
vouchers go to families to help prevent the need to move a 
child from home to foster care or to help families reunite with 
their children once they are placed in foster care.
    H.R. 4300, which the House Financial Services Committee 
passed unanimously, would make FUP vouchers more effective for 
foster youth. And as Chairman Crapo explained, it would 
authorize HUD to make FUP vouchers available to every housing 
agency that now administers vouchers and wants to administer 
FUP vouchers, as long as the agency meets program requirements 
and funds are available. It would also encourage housing 
agencies and child welfare agencies to connect youth to 
supports that help them become independent, and it would let 
youth use their FUP vouchers for up to 5 years, which is 2 
years longer than the current limit, if they are working, 
engaged in educational supports, or meeting other requirements. 
And it would provide supplemental funding for housing agencies 
to support these partnerships with child welfare agencies.
    In addition to passing H.R. 4300, Congress should also pass 
the $20 million increase in the House and Senate versions of 
the 2020 appropriations bills to expand FUP vouchers for at-
risk foster youth. That would enable more than 2,000 young 
people who have left foster care and are at risk of 
homelessness to live in decent, stable housing.
    Congress should also urge the Administration to withdraw 
Department of Health and Human Services and HUD proposed 
regulations to roll back equal access and antidiscrimination 
protections for LGBTQ people. The proposed rules would put 
LGBTQ people, including young people generally and former 
foster youth specifically, at risk of sleeping on the street or 
taking dangerous steps to access housing.
    Thank you very much for opportunity to testify today, and I 
would be happy to answer any questions that you have.
    Senator Brown. Thank you, Ms. Bailey.
    Senator Scott, begin.
    Senator Scott. Thank you, Mr. Ranking Member. Good morning 
to the panel. Thank you all for being here this morning on a 
very important topic, a number of important topics.
    I would like to take a moment to give a special thanks to 
Ms. Ivory Mathews for joining us today from my home State of 
South Carolina. I commend her for her hard work and dedication 
to helping improve the lives of my constituents in South 
Carolina. From her amazing work in Greenville to her addressing 
the tragic situation in Columbia, I am very confident that with 
her at the helm our families are in safer hands. Thank you for 
your expertise, your leadership, and your passion for helping 
those folks who are most vulnerable in our society.
    The start of this year was one of tragedy for our community 
in South Carolina. I would like to honor Calvin Witherspoon, 
Jr., and Derrick Caldwell Roper, who tragically lost their 
lives in what were, sadly, entirely preventable deaths as a 
result of carbon monoxide poisoning on January 17th of this 
year. This tragedy only galvanized my need to ensure that we 
are committed to protecting our most vulnerable citizens like 
Calvin and Derrick and the 239 other families at Allen Benedict 
Court public housing community in Columbia.
    That is why I worked with my colleague Senator Menendez on 
finding a bipartisan solution to put a stop to any more deaths 
like those in South Carolina, Pennsylvania, Oklahoma, Virginia, 
Michigan, Indiana, and Tennessee. That is over 14 deaths in 
public housing across this country since 2003. Fourteen deaths 
too many.
    I also want to thank Secretary Carson and his staff at HUD 
for their commitment to addressing this problem and for moving 
forward with a $5 million grant program to help our public 
housing authorities to purchase and install CO detectors.
    Ms. Mathews, CO poisoning can happen quickly and without 
warning, resulting in entirely preventable deaths if proper 
measures are taken. We have a patchwork of State laws and 
regulations when it comes to carbon monoxide prevention. In 
Utah, for an example, a State that has seen a 25-percent 
increase in carbon monoxide poisoning in just the last year, 
only new residential structures regulated by the State 
residential code are required to have CO detectors. How would a 
bill like CO ALERTS help close the loophole nationally in our 
federally assisted housing when it comes to stopping this 
silent killer? Ms. Mathews.
    Ms. Mathews. Thank you, Senator Scott. The CO ALERTS Act 
will save lives, and the Senate should pass this bill. 
Especially since HUD has made it clear that it is waiting on 
congressional action, it is important for our industry that we 
have those mandatory guidelines that are in law so that no 
other housing authority or family have to experience such a 
tragedy as we experienced in Columbia, South Carolina.
    Senator Scott. Thank you, ma'am. Thank you for that. Just a 
note that in the last 2 weeks there were two incidences of 
carbon monoxide poisoning in Detroit. We have to find a way to 
stop this silent killer.
    Last, I would also like to bring your attention to Senator 
Cortez Masto's bill that I colead on manufactured housing. 
Affordable home ownership can come in many forms, residential 
manufactured housing being one of those. This is a safe and 
affordable housing option for more than 22 million working 
families. In South Carolina, it is particularly important as 
nearly one of five homes are prefabricated. Our bill would open 
the door for more affordable housing options for individuals 
and families across the country.
    Mr. Yost, can you explain how manufactured homes fill an 
important role in providing lower-priced, more affordable 
housing as the HUD report indicates?
    Mr. Yost. Thank you, Senator Scott. And, yes, South 
Carolina is a very popular State for manufactured housing. As 
you know, there are 376,000 manufactured homes in your State.
    Senator Scott. Yes, sir.
    Mr. Yost. About 20 percent of your homes are manufactured 
housing. I think what manufactured housing does is it allows us 
to supply an affordable price point. The average site-built 
home today is going for $294,000, excluding land. The average 
manufactured home is $72,000. It is a big difference when 
people are fighting for affordability every day.
    So at the end of the day, this bill, S. 1804, really allows 
us to spread manufactured housing across the country and give 
people the choice of having an affordable option so that they 
can support their family.
    Senator Scott. Thank you, Mr. Yost.
    Mr. Ranking Member, I just want to thank the witnesses 
again for being here today and for giving us important 
testimony that will help us help the most vulnerable in our 
society.
    Senator Brown. Thank you, Senator Scott.
    I have questions for Ms. Mathews and, Ms. Bailey, I will 
start with you. I appreciate that a number of you mentioned on 
the panel and the dais the Fostering Stable Housing 
Opportunities Act that Senator Grassley and Senator Reed and I 
are working on. Ms. Bailey, you outline in your testimony the 
challenges facing youth who age out of foster care. Walk 
through again what this bill will mean for young people aging 
out, why it makes their lives better.
    Ms. Bailey. Well, housing, as we know, for anyone is a 
foundation to be able to go to school, work, and lead a healthy 
life, and given that these youth often have low wages, it just 
makes that affordability gap bigger for them. Without this 
housing, they could have years spent homeless or, even worse, 
maybe in jail and prison and other bad outcomes that we know 
that happen when people are at risk of homelessness.
    So this bill would give youth that first step in being able 
to have a safe, stable place to live so that they can build 
their futures.
    Senator Brown. You had mentioned the challenges facing 
LGBTQ young people and people of color. How will this bill help 
them overcome some of the immense colleagues they face?
    Ms. Bailey. Just like with youth in general, they face--
housing will play a huge role in being able to make those first 
steps as they enter into adulthood. LGBTQ youth, black youth, 
Hispanic youth who are all over-represented in the foster care 
system are also over-represented in homelessness, over-
represented in jails and prisons, and face disparities when 
trying to access health services.
    Housing plays a huge role in being able to reverse all of 
those poor outcomes, and this bill will give them that 
assistance that they need to avoid those challenges in the 
future.
    Senator Brown. Thank you.
    Ms. Mathews, we know that fewer than 300 public housing 
agencies have access to current FUP vouchers that are targeted 
to foster youth. How would a bill like this be used in your 
communities?
    Ms. Mathews. In our community, we partner with South 
Carolina Department of Social Services and many nonprofit 
organizations that house individual youths that are currently 
in foster care. And for many, many years, it is a constant 
struggle to help find housing resources for those families 
because we do not have the dedicated resources available like 
what will be approved in the bill that Ms. Peggy mentioned. And 
I think that it is tremendously important to have a bill like 
this passed in law and for us to have the resources so that we 
can help those families, those youth, transition and stabilize 
their lives. Housing is the first part of being able to 
stabilize their lives as they transition into adulthood. So we 
certainly support it, and it would be tremendously beneficial 
in our community.
    Senator Brown. Thank you.
    Follow up on that, Ms. Bailey, in this way, if you would, 
please. We know what an important social determinant of health 
stable housing can be. We know that low-income people and 
people of color, their infant mortality rates are higher, their 
maternal mortality rates are higher, significantly higher.
    Given your background at the intersection of housing and 
health, talk about how stable housing impacts people's health.
    Ms. Bailey. You know, I think it is important, in thinking 
about health, to think about not just someone's physical and 
their primary health needs, but also their mental health and 
substance uses as a disorder and disease, too, that housing 
helps people be able to access the doctor. If they have a 
chronic health condition, it allows them to store their 
medication, to have access to healthy food. And then just the 
stability of knowing that you can pay for your place to live 
and avoid homelessness is a comfort that so many families are 
not able to have.
    I think, last, people experiencing homelessness are exposed 
to severe weather, cannot take care of infections, and have 
to--and they must stand in line at shelters in order to be able 
to have access to that shelter and, therefore, cannot engage in 
a lot of services and then work.
    So housing is the foundation for everything that we think 
about when it comes to improved health care, and also we know 
that people experiencing homelessness access emergency room 
care and are over-institutionalized, which is expensive for the 
health care system. Without access to housing, all of these 
poor outcomes are experienced in the health care system.
    Senator Brown. Thank you.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman. And I want to 
thank our witnesses for agreeing to testify before the 
Committee today.
    I would also like to thank my colleagues on both sides of 
the aisle who wrote the legislation that we are considering at 
today's hearing.
    Before I begin my questions, I would like to take a moment 
to point out the fact that it has now been 534 days since our 
last markup in this Committee, which was when we considered 
legislation modernizing the CFIUS process. If you go all the 
way back to the last nonsecurity bill, which was S. 2155, it 
has been 689 days. That is nearly 2 full years.
    This is particularly unfortunate because there are a lot--
well, there is a whole host of bills that are being discussed 
on both sides that I really think Republicans and Democrats 
could agree on. And when it comes to housing affordability, it 
has been really challenging to find a bipartisan approach that 
we can get to, to actually make the major changes that are 
necessary if we want to fix what is going on in FHA. I truly 
believe that reform of the Federal Housing Administration and 
the way that it operates within HUD is critical. But it is 
going to take a bipartisan effort.
    Everyone here is well aware of the fact that the FHA is 
broken, and yet at this stage of the game, we have yet to be 
able to come to a bipartisan agreement on how we want to fix 
it. And so I would challenge all of us once again to sit back 
and, look, if we really want to make changes in this, it is 
going to take a bipartisan effort to get it done. And I would 
be more than willing to work with any member on either side of 
the aisle to try to find that step forward.
    I guess we would also have to be honest as we look at the 
bills before us today, which are important ideas that I think 
should move forward through the markup process. But they are 
only going to move the needle so far. If we really want to make 
housing affordable for the long term, we have to tackle the 
tough issues confronting us in fundamental housing finance 
reform. The thought of Congress coming together to solve major 
problems does not have to be a foreign concept. Heck, if you 
take a look at most of our States--I will give South Dakota as 
an example--in a matter of 40 days and 40 nights, the 
legislature gets together; they work through; they look at 
every single bill that comes before them. They pass a balanced 
budget, and then they go back and they live with the rest of 
the citizens and the laws that they have created. I think that 
same type of an attitude has to be shown within Congress.
    Here in the Senate Banking Committee, we have had luck in 
leaning in to difficult housing problems in the past, and I 
have to offer my commendation to Chairman Crapo for his 
bipartisan work on the Housing Finance Reform and Taxpayer 
Protection Act. It is better known as ``Johnson-Crapo''. It has 
been 6 years since we have actually had that discussion. That 
would be an excellent place from which to start on GSE reform. 
And while I know that there would be many ideas for amendments, 
I hope we can include Johnson-Crapo in a future markup along 
with amendments that would make it better.
    Now, with that being said, I do want to ask--I know that my 
colleagues have already had a chance to ask some questions 
about some of the legislation before us, but what I would like 
to do is ask a follow-up question in a way. From a high-level 
perspective, what are some of the additional steps that you 
would like to see this Committee taking to promote housing 
affordability? This is almost like an open-mic opportunity for 
you, but from your perspective, can you share with us what you 
would like to see in terms of what might be options that would 
help in affordable housing? If anyone would like to step 
forward. If not, I will just go down the line.
    Ms. Bailey. I do not mind going first. I could go first. 
What we would like to see, first and foremost, is a major 
expansion to the Housing Choice Voucher Program. Housing choice 
vouchers have been shown to be extraordinarily effective in 
being able to stabilize families and individuals in their 
housing in a very efficient way. You know, sometimes when we 
think about solving the affordable housing crisis, we think of 
it as solving entirely for homelessness, and it is not. 
Homelessness is a part of the problem, but overall many people 
have someplace to live; they just simply have a hard time 
making ends meet. And if we could give them--if we could make 
sure that everyone who needs it can afford their housing--and a 
housing choice voucher is a way to do that--we would go a long 
way to solving the crisis.
    Senator Rounds. Thank you.
    Other thoughts, Mr. Yost?
    Mr. Yost. Senator Rounds, thank you for the question. I 
think there are two things that come to mind immediately. The 
first thing is I would encourage the GSEs to do their duty to 
serve that they have actually put in writing for 2019 and 2020 
for the creation of a secondary market for chattel lending. I 
think that creation of a secondary market will create a more 
competitive financing environment for affordable housing and 
allow participants to get into it.
    Many times, even with the expense of chattel lending, a 
manufactured home is actually a cheaper alternative than 
apartment rent and single-family housing options.
    Senator Rounds. Before you go on, just because I know I am 
going to run out of time, but, Ms. Mathews, would you like to 
make any comments as well? Then I am going to run out of time.
    Ms. Mathews. Yes, thank you, Senator Rounds, for the 
question. I particularly really support some of the tools that 
are already in existence, like the extension of the Rental 
Assistance Demonstration Program. That is a very valuable tool 
that allows us to garner some private and public partnerships 
to expand more affordable housing. We know that federally there 
just is not enough dollars that exist that will allow us to 
address all the deferred capital needs. But any of the 
legislation or bills that are on the table that will allow, you 
know, for more public-private partnerships to expand more 
affordable housing.
    Senator Rounds. Thank you. My time has expired. Thank you, 
Mr. Chairman.
    Senator Brown. Thanks, Senator Rounds.
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman. And 
thank you, witnesses, for your excellent testimony.
    Let me begin and also recognize Senator Kay Hagan, who 
served this Committee and this Congress with great distinction. 
She was an extraordinary person.
    Let me also say I come at this from two perspectives: an 
authorizer on this Committee and an appropriator. I am the 
Ranking Democrat on the Transportation, Housing, and Urban 
Development Subcommittee of Appropriations. And echoing Senator 
Brown's comments, the President's budget that he sent up was 
less than adequate, a $12 billion cut in affordable housing and 
economic development programs, including HOME and public 
housing--Ms. Mathews, you would have a lot of problems trying 
to survive on that budget--and the Community Development Block 
Grant Program, one of the most popular programs throughout the 
country.
    Fortunately, through the leadership of Senator Collins and 
all my colleagues, we were able to vote on a bipartisan basis 
for a very strong appropriations bill, 84-9, and I thank all of 
them for that. Roughly $48 billion more in discretionary HUD 
resources can go to affordable housing, can go to homeless 
populations, can go to community development opportunities, and 
can go to environmental remediation. And this goes to your 
point about carbon monoxide. There is another very dangerous 
thing, and that is lead, lead exposure in public housing and 
lead exposure in some rental housing. We can get at that and we 
must. So we have made some progress. We hope we can go to 
conference and even get more resources for the housing 
programs.
    I want to commend my colleagues on the legislation they 
have submitted. It is just thoughtful and it is important, and 
we need to move quickly on it. But I would be remiss if I did 
not mention a piece of legislation I have just introduced with 
Senator Collins, S. 2801, which would extend permanently the 
authorization for the U.S. Interagency Council on Homelessness. 
Since they began planning and coordinating with all these 
Federal departments, we have seen a reduction--this is from 
2010 to today--a reduction in many of these numbers in terms of 
overall homelessness and veterans' homelessness.
    So I would just turn to Ms. Bailey and ask for your 
comments on the importance of the Interagency Council.
    Ms. Bailey. Yeah, the Interagency Council on Homelessness 
has played a vital role in being able to coordinate Federal 
agencies, as you said. I have been working on these issues 
since almost the creation of the Interagency Council or when it 
first at least started to get legs in the early 2000s and 
mandated that communities should make 10-year plans to end 
homelessness and really spurred the way for our rethinking 
about homelessness as an intractable problem but a problem that 
we can solve.
    The way that they have done that, the most is, as you 
mentioned, with veterans. I think 78 communities, or close to 
that, have ended veterans' homelessness, and three States, and 
without the Interagency Council's work, to not only help the VA 
target resources but also the Department of Health and Human 
Services and HUD toward that problem is exactly what the 
Interagency Council was meant to do.
    Senator Reed. Well, thank you very much. You are right, I 
think included in those 78 communities are Abilene, Texas; 
Lexington, Kentucky; Little Rock, Arkansas; Poplar Bluff, 
Missouri; and 71 counties in Mississippi. So this is reaching 
into rural areas which have veterans, and we need to deal with 
them, and I think that is appropriate.
    I am slightly off topic, but I think it is important. I 
want to follow up, Ms. Bailey. The Housing Trust Fund and the 
Capital Magnet Fund is a great source of resources for 
affordable housing, and every community in this country is 
facing an affordable housing crisis. If you go to the big 
cities such as San Francisco and Boston, everyone is being 
priced out of the market. But now you are going to smaller 
communities, and for reasons that Mr. Yost suggested, including 
zoning and every other thing, you cannot build affordable 
housing.
    How important is the Housing Trust Fund and the Capital 
Magnet Fund, in your view, Ms. Bailey?
    Ms. Bailey. Given the affordable housing crisis that we 
have, every resource is important, but the Housing Trust Fund 
really helps make sure we are targeting housing resources to 
the lowest-income people.
    What I do not think everyone understands all the time is 
that the low-income housing tax credit is great and is our 
largest investment in capital resources, but it only makes 
housing affordable for people who are at 60 or 80 percent 
median income, in the $40,000 range for income.
    What the Housing Trust Fund does is allow for dollars to be 
coupled with the low-income housing tax credit to make units 
affordable for people at lower-income levels, especially people 
with no incomes or at extremely low incomes, in the 30-percent 
area of median income range.
    Senator Reed. Well, thank you very much. I want to thank 
Mr. Yost and Ms. Mathews, too, for your great work. Thank you 
very, very much.
    Senator Brown. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. I want to thank 
you and Chairman Crapo for holding a hearing on these important 
housing bills, including the CO ALERTS Act. And I hope the 
Committee will consider in its agenda having several other 
housing-related opportunities. I think this is one of the most 
critical elements of our economy and in the lives of our 
families, and I hope we can do more.
    In the age when bipartisanship is supposed to be dead, 
Senator Scott and I were able to work together and introduce 
this life-saving bill. Carbon monoxide is a true silent killer. 
It is tasteless, colorless, odorless, and yet all it takes is a 
few minutes of exposure to face serious health risks like brain 
damage and death. But, luckily, this danger is entirely 
preventable. Carbon monoxide alarms are a proven way to alert 
families to a grave health threat, but a CO detector is not a 
luxury accessory for well-to-do homeowners. It is a basic life-
saving necessity that belongs in every home, and that includes 
public housing.
    Unfortunately, while Federal assisted housing units must 
include smoke detectors, there is no such requirement for 
carbon monoxide alarms, and that is unacceptable. My State of 
New Jersey is one of the 27 States that requires CO detectors 
in private dwellings, but Federal public housing is exempt from 
these requirements. In 2019 alone, four public housing 
residents died from completely preventable carbon monoxide 
poisoning. Two of those deaths took place in South Carolina, a 
State that like New Jersey requires carbon monoxide alarms. 
There is no excuse for not taking action today to save lives, 
and HUD has publicly stated that Congress needs to act. And I 
hope that our bipartisan bill that adopts International Fire 
Code standards requiring alarms to be present to detect carbon 
monoxide emitted from aging appliances, forced-air furnaces, 
fireplaces, and attached garages happens.
    As the winter fast approaches, residents fire up their 
furnaces, and the risk of carbon monoxide increases. It is time 
for the Senate to follow the House of Representatives that 
overwhelmingly passed the CO ALERTS Act.
    And so in this regard, I am going to stick just to this 
line of questioning, though I am tempted with very few housing 
opportunities to broaden it. But as I just mentioned, Ms. 
Mathews, in South Carolina, like New Jersey, the State has 
carbon monoxide detector requirements. But despite the presence 
of State laws, two public housing residents died from carbon 
monoxide poisoning in South Carolina earlier this year.
    In accordance with State law, were there carbon monoxide 
detectors in these public housing units?
    Ms. Mathews. Senator Menendez, I joined the Columbia 
Housing Authority on July 1, 2019, and it is my understanding 
that there were no carbon monoxide detectors installed in these 
public housing units.
    Senator Menendez. Do State officials, to your knowledge, 
conduct regular health and safety inspections for carbon 
monoxide detectors in public housing which is federally funded?
    Ms. Mathews. No, I am not aware of any State agency 
responsible for conducting health and safety inspections of 
carbon monoxide detectors.
    Senator Menendez. And the reason is that HUD does not 
inspect for carbon monoxide detectors because there is no 
Federal carbon monoxide detector requirement. And despite State 
laws, all four of the carbon monoxide-related deaths in public 
housing this year occurred in States that have some type of CO 
alarm requirement but do not inspect federally assisted housing 
units for them. It is clear that we need to close the gap.
    Earlier this year, a HUD spokesman said Congress can fix 
this by passing legislation requiring carbon monoxide detectors 
for those living in HUD housing units where detectors are 
needed, and I hope that this hearing motivates us to do so.
    Ms. Bailey, do private property owners who decide to 
participate in HUD's Section 8 Housing Choice Voucher Program 
have to abide by Federal health and safety standards, such as 
having smoke alarms in their buildings?
    Ms. Bailey. They do. Yes, they do. Their inspections are 
required.
    Senator Menendez. So I ask that question as a predicate to 
saying so wouldn't requiring private landlords who accept 
housing vouchers to comply with carbon monoxide alarm 
requirements similar to those that already exist for smoke 
alarm requirements be consistent with our existing practice of 
requiring private landlords who choose to participate in HUD 
programs to take certain steps to guarantee the health and 
safety of their residents?
    Ms. Bailey. Yes, it would, and it seems like it is a 
responsibility for Federal dollars to go to housing that is 
safe for people.
    Senator Menendez. And so, finally, Ms. Bailey, your 
organization, the Center for Budget and Policy Priorities, 
states that public housing assistance currently helps about 1.9 
million seniors, 2.4 million people with disabilities, 6.3 
million people and families with children. Isn't it important 
for the Federal Government to protect these groups of fellow 
citizens, well over 10 million to 11 million, from the dangers 
of carbon monoxide?
    Ms. Bailey. Absolutely.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Brown. Senator Tester.
    Senator Tester. Thank you, Senator Brown. I want to thank 
you and the Chairman for having this hearing, and I want to 
thank the folks who are on the panel today. And I just want to 
know, because I do not want to go into a realm you are not 
familiar with, but how many folks have had experience with the 
HUD-VASH Program? Raise your hand if you have, because then I 
have got a question if you have.
    Ms. Mathews. [Raises hand.]
    Senator Tester. So in your experience, how adequate is that 
program for meeting the needs out there for veterans? And, by 
the way, I have got a bill to expand it to include other than 
honorable discharge veterans because a lot of these folks get 
PTSD and then they get booted out of the military through no 
fault of their own, through their experience. So the question 
is: Right now, how effective is that program in meeting the 
needs of homeless veterans?
    Ms. Mathews. In Columbia, South Carolina, we currently 
administer 414 HUD-VASH vouchers.
    Senator Tester. For homeless vets?
    Ms. Mathews. For homeless veterans.
    Senator Tester. And how many homeless vets do you have left 
over?
    Ms. Mathews. Oh, boy. Probably four times as many.
    Senator Tester. Four times as many? So that program could 
be expanded. You could utilize those HUD-VASH vouchers to meet 
the needs of the people who served our country?
    Ms. Mathews. Absolutely.
    Senator Tester. OK. Thank you very much.
    And this is for anybody who wants to answer this. As the 
Ranking Member pointed out in his opening statement, we have 
got housing issues with affordable housing, workforce housing 
throughout this country. It does not matter if you are talking 
urban areas or rural areas. In fact, I would say that in 
Montana it is probably the biggest inhibitor for economic 
development that we have right now because there is simply not 
any housing. And if you are in a real small town, the housing 
is dilapidated, so we have got another problem there.
    So what is the best way to encourage workforce housing? At 
the Federal level, what can we do to encourage more housing to 
be built that people can afford? Is there any certain programs 
that you guys look at and say, ``You know what? This is really 
effective; this is good. It does the job. If there was more 
emphasis put on this program, it could really make a 
difference''? Anybody can answer.
    Ms. Bailey. Well, with being able to utilize the low- 
income housing tax credit and the National Housing Trust Fund, 
those are two places where investment in being able to develop 
housing units is critically important.
    Senator Tester. OK.
    Ms. Bailey. And then as I said earlier, being able----
    Senator Tester. What was the second one, low-income----
    Ms. Bailey. The National Housing Trust Fund.
    Senator Tester. OK. Go ahead. Keep going.
    Ms. Bailey. And then additions to the Housing Choice 
Voucher and other rental assistance programs is also vitally 
important because those two programs alone cannot make sure 
that housing is affordable for the lowest-income people.
    Senator Tester. I am going to get to manufactured housing 
in a minute, Mr. Yost, but have either of you utilized the low-
income housing tax credit? Go ahead.
    Ms. Mathews. Yes, we have utilized the competitive 9-
percent tax credit and the 4-percent bonds.
    Senator Tester. And in your utilization of it, has it 
resulted in positive impacts on the housing market?
    Ms. Mathews. It certainly has.
    Senator Tester. Do you fully utilize all the credits that 
are available, or could you use more?
    Ms. Mathews. We could certainly use more.
    Senator Tester. And you could put them to work and they 
would be as effective as the ones you have now?
    Ms. Mathews. Absolutely.
    Senator Tester. OK. Cool. Thank you guys very, very much. 
This is a big problem. I mean, it just is a big problem.
    Mr. Yost, you put out some figures, and, by the way, I am a 
cosponsor of the bill, and I believe in what you do. When my 
kids were thinking about moving back to farm before they 
realized they were not going to make enough money, I almost 
bought a manufactured home, and they are pretty damn 
impressive. But the numbers you put forth are amazing. You can 
build it for about half of what you build a onsite stick-built 
home--or not half; a quarter. A quarter of what you build an 
onsite stick-built home. I have just got to ask, because those 
figures are almost too good to be true. When you put forth 
those figures, are you putting them forth within the same 
region? Because a house in Montana, because of the price of 
land, not in all cases but in most cases, is far less. Are we 
comparing apples to apples here? You are not comparing the 
stick-built onsite homes in, say, a place like California 
versus a place like Montana?
    Mr. Yost. So as an example, in Montana--the figures that I 
am quoting are national averages. But in Montana, for example, 
the national average for a home is $294,000, no land, just the 
house itself. For a multisection, meaning a larger home, in 
Montana it is about $126,000 for kind of a comparable home.
    Senator Tester. OK.
    Mr. Yost. So at the end of the day, manufactured housing on 
a per square foot basis is about $50 per square foot because of 
the process, techniques, and automation we have, versus site-
built, which is $111 per square feet.
    Senator Tester. And you also gain efficiency in workforce, 
right?
    Mr. Yost. Yes, sir.
    Senator Tester. And you also gain efficiency in--I would 
assume you have got different plans, but you probably do not 
have a different plan for every house you build, right?
    Mr. Yost. We have a lot of plans.
    Senator Tester. OK.
    Mr. Yost. We do several thousand models.
    Senator Tester. And you also gain efficiency in bulk buying 
of everything, from shingles to steel to lumber, right?
    Mr. Yost. Yes, sir. Economies of scale.
    Senator Tester. So I just have a request.
    Mr. Yost. Yes, sir.
    Senator Tester. If you guys could put one of your plants in 
Indian Country where they do not have enough housing, yet they 
have a hell of a workforce, it would be great. I think it could 
really be a win-win deal. And there are some tax advantages for 
you to do that.
    Mr. Yost. I will come see it.
    Senator Tester. I would be more than happy to help you out.
    Mr. Yost. Very good. Thank you, sir.
    Senator Tester. Yeah.
    Senator Brown. Senator Cortez Masto.
    Senator Cortez Masto. Thank you. I want to thank the 
Chairman and Ranking Member for prioritizing a hearing on the 
desperate need for affordable housing. You have heard it from 
the Members here. I am in Nevada. This is the number one issue 
all over, whether you live in an urban or rural area in the 
State of Nevada. We have been having roundtable discussions, 
talking about how we make it pencil out, how do we bring 
affordable housing.
    So one of the areas I am focused on and a lead sponsor of 
is the Manufactured Housing Modernization Act, so I want to 
talk a little bit about that. And I want to thank Senators 
Scott and Smith and Cramer and my colleague Senator Tester for 
joining me on that bill.
    I would like to place into the record letters of support 
for Senate bill 1804 from the following organizations: 
Prosperity Now, National Low Income Housing Coalition, and Next 
Step, without objection.
    Senator Brown. No objection.
    Senator Cortez Masto. Thank you.
    I also am a cosponsor of Senator Scott and Senator 
Menendez's bill, the CO ALERTS Act, and look very favorably on 
and will be supporting H.R. 4300 as well.
    But let me jump back to affordable housing, because after 
my discussions in my State with so many stakeholders about the 
need for affordable housing, I do realize we need to pass the 
Affordable Housing Credit Improvement Act; we should expand the 
low-income housing tax credit by 50 percent, helping to build 
more than 3,400 additional affordable homes in Nevada over the 
next 10 years, and millions more nationwide.
    I have to say, Ms. Bailey, thank you so much for putting in 
perspective the distinction between the low-income housing tax 
credit and the HTF. Everything has to work in conjunction with 
one another. I think what I find after talking with so many of 
the stakeholders is that there is not one single financing 
piece that is the answer. You have to kind of cobble it 
together and work with local government, the private sector, 
the builders, everybody, to get that done. And it requires 
stakeholders coming together to make that happen.
    So I appreciate so the conversation today, but, Mr. Yost, 
thank you for being here. I am going to follow up on what 
Senator Tester talked about with Indian County. I sit on Senate 
Indian Affairs as well. I attended a hearing just recently on 
mortgage lending in Native American communities, and the 
witnesses mentioned the importance of manufactured homes as an 
affordable and sometimes only housing source for tribal lands.
    Now, you have talked about the costs of a manufactured 
home. Can you please speak to the quality of manufactured 
homes? I have seen many very attractive manufactured homes, and 
I also hear sometimes concerns about the quality, the 
durability of manufactured homes. But can you talk a little bit 
about that, if you do not mind?
    Mr. Yost. Of course. I think that the durability and 
sustainability of manufactured homes is light years more 
advanced than it was decades ago. Just like computer 
technologies advanced, just like manufacturing advanced, homes 
have come a long way from where they were previously. So right 
now today they are built in factories with exacting standards, 
so they are not exposed to the elements, mold and mildew. All 
the materials are indoors. Basically, they go through a 
production process with exacting tables and measurements.
    Actually, you know, most houses for our industry ship down 
the freeway at 50 miles an hour. So when you think about that, 
they are actually built to withstand the shipping and moving 
over the road system. So they are actually very well built 
overall. And they are more energy efficient. If you go to our 
plants and factories, what you will see is the amount of scrap 
and waste is minimized versus onsite construction, which 
generally has dumpster after dumpster that goes to landfills. 
So, overall, I think the sustainability of our product is not 
only just more cost-effective; it is more effective in the 
aggregate for the quality. And you have seen some of the 
pictures in the written testimony.
    You know, we put two homes on the National Mall just 
recently, and we had thousands of people come through. And I 
was standing in a home, and a young lady came up to me and she 
said, ``They directed me over here to see the manufactured 
house. Do you know where it is?'' And I said, ``You are 
standing in it.'' And they are like, ``My God, this is 
beautiful.'' And, you know, that is what I mean. When we can 
give someone a beautiful home that they are proud of for the 
price point we are talking, that is what it is all about.
    Senator Cortez Masto. And I think that is important, and 
that is the reason why I wanted to make sure--and why I 
introduced the bill, to make sure that we are including 
manufactured homes in our planning in local government and 
State government in identifying areas for affordable housing, 
because it has come a long way.
    Now, with that said, I do not think that we ignore any type 
of manufactured housing, right? I think every manufactured 
housing--and I have several in my communities in my State. We 
should be ensuring that they have all the resources they need 
to maintain them, update them, make sure that they are also a 
part of our concerns, and get the funding that is necessary at 
the Federal level, right?
    Mr. Yost. [Nods head affirmatively.]
    Senator Cortez Masto. I so appreciate it. Thank you for 
supporting the bill.
    I would like to clarify a couple of things, though, with 
respect to the bill, S. 1804. It does not require participating 
jurisdictions to allocate HUD funds for manufactured homes. It 
requires the Department of Housing and Urban Development to 
publish rules requiring local jurisdictions to consider 
manufactured housing when putting together their consolidated 
plans. And the bill asks all jurisdictions to consider the role 
that manufactured housing plays for the very reasons that we 
are talking about today.
    And so my final question, I guess, Ms. Bailey, is to you. 
Does it make sense for community leaders to consider the 
millions of families living in manufactured housing when they 
consider housing policy decisions in their communities?
    Ms. Bailey. Absolutely. So as we have said continually 
today, there is a huge affordable housing crisis, and every 
option should be on the table. In Matthew Desmond's book 
``Evicted'', he highlights the people living manufactured 
housing and the need to make it affordable and high quality and 
safe for people. And manufactured housing plays a vital role in 
many communities in the affordable housing space.
    Senator Cortez Masto. Thank you. I know my time is up. I 
just have to say thank you for the hearing. This is such an 
important issue across the country, particularly in Nevada. I 
so appreciate our ability to highlight the affordable housing 
crisis that we have and look for solutions to addressing it. So 
thank you again.
    Chairman Crapo [presiding]. Thank you.
    Senator Jones.
    Senator Jones. I am inclined to say just ``Ditto'' for 
everything my friend said here. But I will ask a couple of 
questions, particularly of Mr. Yost.
    I do want to follow up with what Senator Cortez Masto asked 
about, manufactured housing and the modernization. Obviously, 
Alabama has got a significant percentage of our housing that is 
manufactured housing in many different forms. So I want to 
follow up on the modernization a little bit, but specifically 
with regard to safety. That is a huge issue in a State like 
Alabama that sees any number of natural disasters that come 
through every year.
    Could you talk about that a little bit and the improvements 
in the safety of manufactured housing over the last couple of 
decades?
    Mr. Yost. Yes, thank you, Senator Jones. And, yes, you are 
very familiar with manufactured housing. You have got 15 
factories in your State, and about 17 percent of your housing 
is manufactured housing.
    Senator Jones. Right.
    Mr. Yost. Overall, the safety and improvements on the 
safety front have been monumental in manufactured housing, not 
only within the plants but also externally. So now with the new 
codes that have been out there, basically manufactured housing 
is built to stronger wind zones, and time after time what we 
have see is now with the strong regulations and flood 
requirements that have elevated the homes for flooding and wind 
zone issues, I think they are a nonevent. We have actually seen 
manufactured housing withstand hurricanes and natural disasters 
much more severe than--to greater standards than site-built 
homes.
    Senator Jones. All right. Well, great. Thank you so much.
    Ms. Bailey, I want to follow up on the carbon monoxide and 
the CO ALERTS Act that we have got here. Clearly, and I really 
appreciate Senator Scott and Senator Menendez for this 
legislation and how important it is. But Alabama also has, like 
many States, a fairly aging housing stock these days. And as 
important and as dangerous as carbon monoxide is, I think we 
could all agree there is probably a fair amount of other 
dangers in these housing stocks as well.
    I wonder if you might could just address that and give us 
an overall--a little bit of a discussion about how healthy the 
housing market is these days. And are you concerned about any 
other threats other than carbon monoxide that are facing 
federally assisted households?
    Ms. Bailey. Absolutely. Thank you for the opportunity. So 
one issue in older housing is mold--and we are worried about 
that for kids with asthma--and vermin and roaches and other 
infestations. But lead is also a huge issue, too. We know that 
lead poisoning harms children, especially young children, and 
we need to do more to help abate lead in housing.
    Another issue that we are concerned about is neighborhoods 
overall. We have done work to show that people receiving 
Federal assistance, even within the voucher program that is 
made to be able to be used wherever someone should be able to 
choose where they live, are overly concentrated in high-poverty 
neighborhoods that are often disinvested, which means they do 
not have parks, they do not have grocery stores and other 
amenities that we know help keep people safe. And people in 
high-poverty neighborhoods are also overexposed to air 
pollution and other environmental hazards.
    Senator Jones. Well, thank you for that. I take it from 
your testimony that while all of these bills are just wonderful 
and I support them all, we have still got a ways to go in the 
housing market, in affordable housing and safe housing in the 
United States.
    Ms. Bailey. Most definitely. We need to spur the energy 
that has been created lately to increase the availability of 
affordable housing itself and then invest in housing, whether 
it is private housing or public housing, to make sure that 
everybody has the foundation of safe, affordable housing to 
live and thrive in in the future.
    Senator Jones. Well, great. Thank you all for being here. 
Thanks to the Chairman and Ranking Member for this hearing. 
Thank you.
    Chairman Crapo. Thank you. Again, I apologize for having 
been gone for most of the hearing. We got into a bit of a 
tussle in the Judiciary Committee. But that is not unusual 
either.
    [Laughter.]
    Chairman Crapo. Before we wrap up, Senator Brown has----
    Senator Brown. Mr. Chairman, thank you. And thank you again 
for the comments that all of you made. This was a really 
important hearing, and I appreciate so much Senator Tester 
asking all of you what do we do, steps one, two, three, four, 
to provide affordable housing for people. So thank you. I would 
like to enter into the record a letter of support for the 
Fostering Stable Housing Opportunities Act from a number of 
organizations, including Action Ohio--thank you for your 
comments about Ohio, Ms. Bailey--an organization representing 
Ohio foster youth and alumni. We may have additional letters 
also for the record.
    Chairman Crapo. All right. Thank you. And without 
objection.
    That does wrap up the questioning. I will forgo my 
questions. I do want to say that you may get some additional 
questions from some of the Senators. Those questions will be 
due from the Senators on Thursday, November 14th, and we ask 
each of you, if you do get additional questions, to please 
respond to them as quickly as you can. I believe that it is 
pretty clear we have got strong bipartisan support here on each 
of these pieces of legislation, and it is my hope and 
expectation that we will be able to move expeditiously to get 
them to the floor.
    With that, this hearing is adjourned.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]
               PREPARED STATEMENT OF CHAIRMAN MIKE CRAPO
    Today, the Committee will receive testimony from leaders in the 
housing community on bipartisan opportunities this Congress to expand 
access to affordable housing, to improve the safety conditions within 
current federally assisted housing, and to consider how we might better 
target some of our existing housing resources to meet unaddressed need.
    Welcome to our witnesses, and thank you for taking the time to be 
with us today for this important discussion.
    Joining us today are Ivory Mathews, Interim Executive Director of 
the Housing Authority of Columbia, South Carolina; Mark Yost, President 
and Chief Executive Officer of the Skyline Champion Corporation; and 
Peggy Bailey, Vice President for Housing Policy at the Center on Budget 
and Policy Priorities.
    For purposes of today's hearing, we are focused on examining three 
bipartisan pieces of legislation in particular that have been 
introduced in the 116th Congress.
    This includes S.2160--the CO ALERTS Act, which was introduced in 
July by Senators Scott and Menendez and has the support of five 
Republicans and five Democrats on this Committee;
    S.1804--the ``HUD Manufactured Housing Modernization Act'', which 
was introduced in June and has five bipartisan cosponsors, including 
Senators Cortez Masto, Scott, Cramer, and Smith; and
    H.R. 4300--the ``Fostering Stable Housing Opportunities Act'', 
which has bipartisan interest in the Senate and is moving quickly 
through the House of Representatives on a strong bipartisan basis.
    The CO ALERTS Act would require the installation and maintenance of 
carbon monoxide alarms in most forms of federally assisted housing, in 
any dwelling unit containing a fuel-burning appliance, fireplace, 
furnace, or enclosed garage.
    Currently, the majority of federally assisted housing programs have 
no such requirement, despite similar requirements in 37 States and the 
District of Columbia.
    At least 13 individuals living in federally assisted housing have 
died due to carbon monoxide poisoning since 2003, including four in the 
past year.
    In April, Secretary Carson announced that HUD would undertake a 
rulemaking process to establish such a requirement across all of HUD's 
public housing and rental-assistance programs.
    The bill would also require the HUD secretary to provide guidance 
to public housing agencies on how they can better educate tenants on 
health hazards in the home.
    The HUD Manufactured Housing Modernization Act would provide 
confirmation to State and local jurisdictions who receive HUD funding 
through programs like the Community Development Block Grant or HOME 
Investment Partnerships program that manufactured housing is an 
eligible affordable housing option for which communities can receive 
public funding for construction and repair.
    In other words, local jurisdictions would have a broader menu of 
options available as they seek to meet the unique affordable housing 
needs of their community.
    The Fostering Stable Housing Opportunities Act was advanced 
unanimously out of the House Financial Services Committee in September, 
and awaits floor consideration.
    It would authorize HUD to allocate vouchers under its Family 
Unification Program more directly to any public housing agency that 
requests an allocation in order to provide timely assistance to an 
eligible youth who is aging out of foster care and at risk of losing 
their safety net overnight.
    The bill would also extend the length of a family unification 
voucher by up to 24 months for eligible youth who are either 
participating in HUD's Family Self-Sufficiency program, working towards 
a degree, or are participating in a career pathway.
    These individuals would also be eligible for any additional 
supportive services made available in connection with any housing 
assistance program of the agency that provides the voucher.
    I commend HUD and Secretary Carson for their ongoing work on a 
number of the issues we will discuss today--including the forthcoming 
rulemaking on Carbon Monoxide alarms, and HUD's new ``Foster Youth to 
Independence'' initiative.
    Each of the three bills we are examining today have been 
thoughtfully put together, and have strong bipartisan support.
    I look forward to hearing from our witnesses on these legislative 
proposals and I also look forward to working with Members of the 
Committee to identify other items with bipartisan support in the 
affordable housing space and elsewhere.
                                 ______
                                 
              PREPARED STATEMENT OF SENATOR SHERROD BROWN
    Thank you, Chairman Crapo for holding today's hearing, and thank 
you to all of the witnesses for being here today.
    I'd like to start by taking a moment to acknowledge the passing of 
one of our former colleagues, Senator Kay Hagan.
    Senator Hagan contributed so much to this Committee and was a 
fierce advocate for the people of North Carolina. Our thoughts and 
prayers are with her family.
    I have long said that the ``housing'' part of this Committee's name 
doesn't get enough attention. Today's hearing is an important, but 
small, step toward giving the affordable housing crisis we have in this 
country the attention it deserves.
    Right now, nearly 11 million households spend more than half of 
their income on housing, and 7 of the 10 fastest growing jobs don't pay 
enough to afford a one bedroom apartment.
    This is not an urban problem or a rural problem--it hits nearly 
every community in every State.
    And instead of working to solve this crisis, this Administration is 
making it worse--from proposing deep cuts to the HUD budget, to 
dismantling fair housing protections, to advocating for a housing 
finance system that would make mortgages more expensive and harder to 
get.
    Fortunately, Members on this Committee are taking some steps to 
address the housing challenges we face. Today we'll look at our 
Members' bipartisan legislation that would address three unique housing 
issues.
    The HUD Manufactured Housing Modernization Act, introduced by 
Senators Cortez Masto and Scott, would require communities to consider 
manufactured housing as they develop strategic plans to address their 
local housing and community development needs with Federal grants.
    Manufactured housing is home to 22 million people and meets 
critical affordable housing needs across the country, including in 
Ohio.
    Senators Scott and Menendez's CO ALERTS Act responds to two tragic 
deaths from carbon monoxide poisoning in HUD-assisted housing earlier 
this year.
    No one should have to fear their home is going to poison them. 
Their bill would finally require carbon monoxide detectors in all 
federally assisted units that have carbon monoxide risk, to prevent 
more of these avoidable deaths.
    It would take a step toward ensuring that everyone, no matter their 
income, can be safe in their home.
    And finally, we'll discuss the need for a program to address the 
housing needs of young people exiting foster care across the country.
    Every year, 20,000 young people ``age out'' of foster care. Think 
about how challenging this time can be--all of a sudden you're on your 
own, you don't have the same family safety net to fall back on that 
others may have. You're trying to find a job or enroll in school. Many 
face housing instability, and up to one-third will experience 
homelessness at some point during this transition.
    Jeremy from Hamilton County, Ohio, shared with my office that he 
entered foster care at age 10 and aged out at 18 with no permanent 
home. He entered college but found himself homeless during college 
breaks. Jeremy persevered and he became an advocate for others, because 
no young person should have to experience what he did.
    Ohio's foster care youth, alumni, and allies set out to solve this 
problem. They put forth the ideas that became the bipartisan Fostering 
Stable Housing Opportunities Act, so that foster care alumni nationwide 
can have a place to call home. This legislation has the support of 
nearly 100 organizations and 55,000 current and former foster youth.
    Congresswoman Dean introduced this bill in the House, and this 
week, Senator Grassley and I introduced this bill in the Senate.
    This bill provides additional resources in more communities, and it 
encourages local housing and child welfare agencies to work together to 
better serve our young people.
    Mr. Chairman, I look forward to moving on each of these bills 
before the end of the year.
    But this is just the first step.
    Carbon monoxide isn't the only way people are poisoned in their 
homes--there are many health hazards in homes across this country, 
including lead, that we need to do a lot more to combat. There are 
severe housing shortages in urban and rural areas, and in Indian 
Country. We face expiring assistance contracts on thousands of 
affordable units in rural communities. And we see a growing need for 
affordable senior housing options.
    We have to tackle this crisis from both sides. Corporations frankly 
are not paying workers enough to afford a place to live. And we need to 
create more safe, affordable homes--and preserve the ones we've got.
                                 ______
                                 
                 PREPARED STATEMENT OF IVORY N. MATHEWS
Interim Executive Director, Housing Authority of the city of Columbia, 
                             South Carolina
                            November 7, 2019
    Chairman Crapo, Ranking Member Brown, and Members of the Committee 
on Banking, Housing, and Urban Affairs, thank you for the opportunity 
to testify during today's critically important hearing in support of 
the Carbon Monoxide Alarms Leading Every Resident to Safety Act of 2019 
(CO ALERTS Act of 2019).
    My name is Ivory Mathews, and I am the Interim Executive Director 
of the Housing Authority of the City of Columbia, South Carolina.
    I am here to today to support increased access to carbon monoxide 
detectors in federally assisted rental housing through the CO ALERTS 
legislation. The legislation ensures families living in federally 
assisted housing are safer from carbon monoxide poisoning by requiring:

  <bullet>  Carbon monoxide alarms in Section 202, Section 811, Public 
        Housing, and Section 8 federally assisted housing, in 
        accordance with Chapters 9 and 11 of the International Fire 
        Code (IFC). The IFC requires carbon monoxide alarms in units 
        that have potential carbon monoxide sources like gas-fired 
        appliances, fireplaces, forced air furnaces, and attached 
        garages;

  <bullet>  Carbon monoxide alarms in Sections 514 and 515 rural 
        housing, in accordance with Chapters 9 and 11 of the IFC;

  <bullet>  HUD to provide guidance to public housing agencies on how 
        to educate tenants on health hazards in the home, including 
        carbon monoxide poisoning and lead poisoning; and

  <bullet>  HUD, in consultation with the Consumer Product Safety 
        Commission, to conduct a public study on requiring carbon 
        monoxide alarms in housing not covered by the IFC.

    Established in 1937, the Housing Authority of the City of Columbia, 
South Carolina, (Columbia Housing) is the largest housing authority in 
the State of South Carolina. Columbia Housing was formed to provide 
federally subsidized affordable housing to low-income families.
    Since 1937 Columbia Housing has provided housing assistance to low 
income families in Richland County, South Carolina, utilizing 
traditional programs, including Public Housing and Section 8 Housing 
Choice Vouchers (HCV) funded by the United States Department of Housing 
and Urban Development (HUD). In recent years, Columbia Housing has 
updated 10 percent of its housing portfolio with modern mixed-income 
developments and continues to search for ways to expand affordable 
housing throughout the City and County.
    Today, we provide rental assistance to over 6,000 families through 
the HCV Program, Public Housing program, and properties that we own 
and/or manage. Columbia Housing owns and/or manages a real estate 
portfolio of 36 traditional Public Housing communities with 1,684 
units, seven Mixed Finance/Low Income Housing Tax Credit communities 
totaling 425 units, and ten market rate workforce housing communities 
consisting of 249 units. In addition to these multifamily rental 
communities, Columbia Housing administers 4,031 tenant-based vouchers 
including 414 HUD-VASH (Veterans Affairs Supportive Housing) vouchers, 
and 200 Mainstream Vouchers. Columbia Housing also administers resident 
support and service programs under various HUD and non-HUD grants, 
which include the Resident Opportunities and Self-Sufficiency (ROSS) 
program, the Family Self-Sufficiency (FSS) program, the Housing 
Opportunities for Persons with Aids (HOPWA) program, the Continuum of 
Care (CoC) program, and a First-Time Homebuyers Program.
    I would like to begin my testimony this morning by honoring Calvin 
Witherspoon, Jr. and Derrick Caldwell Roper, who lost their lives as a 
result of carbon monoxide poisoning on January 17, 2019, at the Allen 
Benedict Court Public Housing community in Columbia. Our deepest 
sympathies are with the Witherspoon and Roper families, and we are here 
today in memory of these individuals.
    On January 18, 2019, over 400 Allen Benedict Court public housing 
tenants were evacuated from their homes out of an abundance of caution. 
An emergency relocation plan was implemented to secure replacement 
housing for the families and to minimize, to the greatest extent 
possible, the hardships faced by the families who were being 
permanently displaced.
    All residents were offered the option of being temporarily housed 
at area hotels. While most residents selected that option, a few 
elected to temporarily relocate with friends or family members. 
Columbia Housing also worked with area school districts to coordinate 
transportation and secure special permission for primary and secondary 
school age children who were being housed in eight hotels and new 
residences outside of their school zones in order to remain in those 
school districts for the remainder of the school year. We also secured 
temporary housing for pets. We worked with pet hotels and animal 
shelters to care for residents' pets until new suitable pet-friendly 
housing was secured. Columbia Housing worked diligently to assess and 
meet the individual needs of each family.
    The health and safety of our residents remained our highest 
priority during this time. Columbia Housing partnered with the South 
Carolina Association of Social Workers to provide residents with free 
behavioral health sessions that would help to offset day-to-day 
stressors associated with their emergency relocation. Wrap-around 
services were also provided by City and County governments to help with 
associated costs and inconveniences like laundry services, 
transportation to places of worship, transportation to doctor's 
appointments, food preparation, and afterschool activities. Donated 
cash, gift cards, volunteer hours, goods, and services were provided by 
area colleges and universities, social groups, sororities and 
fraternities, faith-based communities, and private citizens.
    After the emergency relocation, Columbia Housing worked diligently 
to ensure that the impacted families were quickly moved to permanent 
housing. Housing options provided to families included other available 
public housing units and Housing Choice Vouchers to secure permanent 
housing in the open market in efforts to eliminate any rent burden on 
the families. Columbia Housing later received an allocation of 237 new 
tenant-protection vouchers (TPVs) on February 23, 2019, from HUD in an 
effort to assist families with securing permanent affordable housing. 
This amount was enough to provide all families residing in Allen 
Benedict Court with a TPV. All costs affiliated with the moves for each 
family were paid by Columbia Housing in accordance with the Uniform 
Relocation Act requirements. Columbia Housing remains grateful for the 
outpouring of support received from the community and the South 
Carolina HUD Field Office.
    Construction began on Allen Benedict Court on June 30, 1939, and 
was funded with a development grant provided under the low-rent public 
housing program. The community consisted of 244 townhome units in 26 
buildings on a 15-acre site located adjacent to Benedict College and 
Allen University, historically black educational institutions founded 
in the late 1800s.
    The 1970s brought a new vision to Federal housing assistance as 
several new programs were developed to subsidize privately owned rental 
properties and the Brooke Amendment capped tenant contributions toward 
rent at 25 percent of family income. Policy changes, partnered with 
market changes, such as the postwar housing boom and increasing rates 
of home ownership resulted in public housing serving the poorest 
tenants. Although Congress eventually began providing operating and 
capital subsidies, and tenant rent contributions increased to 30 
percent of tenant income, these funds have never been sufficient to 
adequately operate and maintain the properties. Congress has 
underfunded the Capital and Operating fund for the public housing 
program for decades.
    During the 1980s, concern continued to grow about the state of the 
existing public housing stock--both the physical soundness as well as 
the social health of public housing communities.
    In 1992, the HOPE VI Program was developed as a result of 
recommendations by the National Commission on Severely Distressed 
Public Housing, which was charged with proposing a National Action Plan 
to eradicate severely distressed public housing. The Commission 
recommended revitalization in three general areas: physical 
improvements, management improvements, and social and community 
services to address resident needs.
    Columbia Housing redeveloped its largest public housing community, 
Saxon Homes, under the HOPE VI program using multiple mixed-finance 
methods. The new community includes 93 home ownership units and 196 
mixed-income units.
    In 2005, Columbia Housing, working with a planning firm, formed a 
Master Plan to redevelop Allen Benedict Court and stimulate private 
reinvestment in the neighborhood under the HOPE VI Program. Columbia 
Housing applied for the very competitive HOPE VI program in 2006, 2007, 
2008, 2009, and 2010. Columbia Housing did not receive a HOPE VI grant 
for Allen Benedict Court.
    In 2012, Columbia Housing applied for and was successful in 
receiving a Choice Neighborhoods Planning Grant for the redevelopment 
of Allen Benedict neighborhood. The Choice Neighborhoods Initiative 
promotes a comprehensive approach to transforming distressed areas of 
concentrated poverty into viable and sustainable mixed-income 
neighborhoods. Choice Neighborhoods links housing improvements with 
necessary services for the people who live there. This includes 
schools, public transit, and employment opportunities.
    In 2017 and 2018, Columbia Housing applied for a Choice 
Neighborhoods Implementation Grant. The Choice Neighborhoods 
Implementation Grant supports those communities that have undergone a 
comprehensive local planning process and are ready to implement their 
``Transformation Plan'' to redevelop the neighborhood. The 
implementation grant would have assisted Columbia Housing in the 
redevelopment of Allen Benedict homes and transformation of the 
surrounding community. Unfortunately, Columbia Housing was not 
successful in receiving a Choice Neighborhoods Implementation Grant.
    After years of seeking special funding for the redevelopment of 
Allen Benedict Court, based on the condition of the property, Columbia 
Housing had no option but to seek demolition for the property under 
HUD's Section 18 Demolition/Disposition provisions. The demolition will 
occur upon the conclusion of ongoing investigations related to the 
carbon monoxide leak. Although residents will not move back into Allen 
Benedict Court, Columbia Housing assisted all displaced residents 
through placement at other public housing properties or through a TPV.
    It is the greatest desire of the City of Columbia and Columbia 
Housing to transform the Allen Benedict Court community along with its 
adjacent neighbors to the site, Benedict College and Allen University. 
However, we do not have the financial resources to move forward with 
the redevelopment. We will continue to work through a joint public-
private partnership utilizing all available resources in the private 
sector to develop a new community that will once again provide a safe 
and healthy living environment for families and children.
    On April 18, 2019, HUD sent a Public and Indian Housing (PIH) 
Notice to all public housing authorities and private owners of HUD-
subsidized housing reminding and encouraging agencies to maintain 
working carbon monoxide detectors when required by local regulations. 
The notice further encouraged owners operating in areas without such 
regulations to consider installing detectors. This notice was issued as 
a part of Secretary Carson's efforts to support decent, safe, and 
sanitary housing in HUD's low-income housing assistance programs and to 
protect families living in federally subsidized housing from 
potentially deadly carbon monoxide.
    Today, there is an estimated $70 billion-dollar backlog of capital 
needs for the Public Housing stock which continues to grow at 
approximately $3.5 billion per year. This backlog includes many health 
and safety items. The 2019 Appropriations Act, enacted on February 15, 
2019, set aside $30 million dollars of Capital Funds for emergencies 
and natural disasters. Not less than $10 million of this set-aside must 
be used for emergency capital needs related to safety and security 
measures. HUD subsequently set aside $5 million of this $10 million to 
purchase, install, repair, and replace carbon monoxide detectors. These 
funds are very important to affordable housing providers' ability to 
adequately comply with measures that will facilitate a safer home for 
all. Additional funding is critical to ensure all public housing 
authorities are able to purchase needed carbon monoxide detectors.
    Columbia Housing installed carbon monoxide detectors throughout its 
public housing properties prior to the notice of funding availability.
    As referenced in a correspondence from Senator Tim Scott and 
Senator Robert Menendez to the HUD Secretary Ben Carson, 
``unfortunately, this type of incident [carbon monoxide poisoning] is 
not isolated to Columbia, South Carolina. According to the Centers for 
Disease Control and Prevention, over 50,000 people go to the emergency 
room every year due to carbon monoxide poisoning. The most vulnerable 
of our populations are the most at risk, including children, elderly 
individuals, and people with disabilities.'' This is why Columbia 
Housing, along with the City of Columbia, South Carolina; South 
Carolina Housing Authority Executive Directors Association; and the 
Carolinas Council of Housing Redevelopment Codes Officials support the 
CO ALERTS Act of 2019 (letters of support are attached).
    Chairman Crapo, Ranking Member Brown, Members of the Committee on 
Banking, Housing, and Urban Affairs, I am honored to have had this 
opportunity to testify before the Committee and provide a perspective 
on the importance of the CO ALERTS ACT of 2019. This concludes my 
testimony. It is my pleasure to answer any questions you may have.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                    PREPARED STATEMENT OF MARK YOST
   President and CEO, Skyline Champion Corporation, on behalf of the 
                     Manufactured Housing Institute
                            November 7, 2019
    Thank you, Chairman Crapo, Ranking Member Brown, and Members of the 
Committee, for the opportunity to testify this afternoon about 
legislative proposals to address the shortage of affordable housing in 
the country.
    My name is Mark Yost and I am the President and Chief Executive 
Officer of Skyline Champion Corporation. With over 65 years of 
homebuilding experience and 38 manufacturing facilities throughout the 
United States and western Canada, Skyline Champion employs over 7,000 
people and is one of the largest homebuilders in North America with 
over 3,000,000 people choosing our home, to call their own. We build a 
wide variety of manufactured and modular homes, park-model RVs and 
modular buildings for the multifamily, hospitality, senior, and 
workforce housing sectors.
    I am appearing before you today on behalf of the Manufactured 
Housing Institute (MHI) where I serve on the Board of Directors and as 
the Vice Chairman of MHI's National Modular Housing Council.
    MHI is the only national trade organization that represents all 
segments of the factory-built housing industry. MHI members include 
home builders, lenders, home retailers, community owners and managers, 
suppliers, and others affiliated with the industry. MHI's membership 
also includes 49 affiliated State organizations. Almost 85 percent of 
the manufactured homes produced each year come from MHI member 
companies.
    While all of the bills before us today are important, I am here to 
focus principally on S. 1804, the ``HUD Manufactured Housing 
Modernization Act of 2019''. MHI strongly supports S. 1804, which would 
require localities receiving Community Development Block Grant Program 
(CDBG), HOME Investment Partnerships Program (HOME), Housing Trust 
Fund, and McKinney Vento Homeless funds to appropriately include 
residential manufactured homes in their comprehensive housing 
affordability strategies and community development plans, which are 
formally referred to as a locality's ``Consolidated Plan.''
    Adoption of this legislation would complement ongoing efforts by 
the U.S. Department of Housing and Urban Development (HUD) and others 
to break down barriers to affordable housing by providing a greater 
emphasis on the use of affordable manufactured homes in the formal 
housing and community development planning process, including giving 
local citizens the opportunity to comment and participate in such 
efforts through the Consolidated Plan process.
    The bill would also likely increase the use of CDBG and HOME funds 
for affordable manufactured housing home ownership use, since the 
Annual Plans that localities use to allocate CDBG and HOME funds in 
their communities are required to reflect the priorities identified in 
their Consolidated Plans.
S. 1804 Will Help Break Down Barriers to Affordable Manufactured 
        Housing
    S. 1804, sponsored by Senator Cortez Masto (D-NV) and cosponsored 
by Senators Scott (R-SC), Smith (D-MN), Young (R-IN), and Cramer (R-
ND), requires HUD to issue guidelines to States and localities relating 
to the appropriate inclusion of residential manufactured homes in their 
comprehensive housing affordability strategies and community 
development plans, called the Consolidated Plans. Such plans are 
required under Part 91 of Title 24 of the Code of Federal Regulations 
to receive Federal funds under HUD's formula grant programs, such as 
the CDBG Program, HOME Investment Partnerships Program, and Housing 
Trust Fund, for jurisdictions and for assessing performance and 
tracking results.
    MHI supports this bill and we appreciated working with the bill's 
sponsor and cosponsors to ensure the bill would positively promote 
manufactured housing across America. As a result, the bill presents the 
following formal ``FINDINGS'' about manufactured housing:

  1.  Manufactured housing is a significant source of unsubsidized 
        affordable housing in the United States.

  2.  Nearly 22,000,000 people in the United States live in 
        manufactured housing, which opens the door to home ownership 
        for families who, in many housing markets, cannot afford to buy 
        a site-built home.

  3.  Manufactured housing is the only form of housing regulated by a 
        Federal building code, which includes standards for health, 
        safety, energy efficiency, and durability, and is found on land 
        owned by the homeowner and land leased by the homeowner in 
        communities owned and operated by private entities, nonprofit 
        organizations, or resident owned communities.

  4.  Manufactured homes can open the door to home ownership for 
        millions of families; they can appreciate in value and be an 
        effective long-term affordable housing solution for some 
        families and communities across the United States.

    S. 1804 will serve as an impetus for States and localities to 
recognize the importance of manufactured housing in addressing the 
affordable housing shortage in the country. Currently, State and local 
discriminatory zoning and development restrictions make it nearly 
impossible to site manufactured homes hurting people and families who 
seek the dream of home ownership. This bill demonstrates that both 
Congress and the Administration view manufactured housing as a top 
priority for addressing the affordable housing shortage in the country 
and that States and localities must remove barriers to this affordable 
home ownership option.
    Additionally, a locality's Comprehensive Plan serves as the general 
basis for establishing how the locality is going to use its CDBG and 
HOME funds, which currently total around $4.2 billion nationally, and 
are required to be used for the benefit of low- and moderate-income 
families and individuals. Localities are allocated these funds for 
housing and community development purposes through their Annual Plan, 
which in turn is required to reflect the priorities and objectives in 
their Comprehensive Plan.
    Thus, we confidently expect that enactment of S. 1804 will result 
in an appropriate increase in HOME and CDBG funds being used for 
manufactured housing, which will increase affordable home ownership 
opportunities for low- and moderate-income families and individuals.
Addressing Our Country's Affordable Housing Shortage
    Families across the country grapple with a housing market that 
currently fails to provide sufficient supply, driving up costs, and 
setting home ownership out of reach for too many. Freddie Mac recently 
reported that 82 percent of renters view renting as more affordable 
than home ownership--an increase of 15 percent from February 2018. 
Included in the same report, which details survey data on affordability 
issues, Freddie Mac presented the following data, illustrating 
Americans' experiences with housing affordability:

  <bullet>  51 percent of Americans have made spending or housing 
        changes to afford their monthly housing payment.

  <bullet>  44 percent of renters and 35 percent of owners who had 
        trouble affording their housing payment over the last 2 years 
        reported having to move to afford housing costs.

  <bullet>  Over half of workers employed in the essential workforce 
        (e.g., teachers, nurses, and law enforcement) have made housing 
        decisions with their student loan repayment obligations in 
        mind.

  <bullet>  Half of owners and 44 percent of renters in the essential 
        workforce say they had to make different housing choices to 
        afford daycare.

    On September 5, 2019, the U.S. Department of the Treasury and HUD 
issued Housing Finance Reform Plans. Both plans recognize the critical 
need for more affordable housing and identify regulatory barriers as an 
impediment to affordable housing.
    The HUD Plan included a section dedicated to manufactured housing, 
entitled ``Eliminating Regulatory Barriers to Affordable Housing 
Including Manufactured Housing''. That section stated that ``policies 
that exclude or disincentivize the utilization of manufactured homes 
can exacerbate housing affordability challenges because manufactured 
housing potentially offers a more affordable alternative to traditional 
site-built housing without compromising building safety and quality.''
    More generally, the White House, HUD, and other parties in 
Washington are focusing on removing barriers to the development of 
affordable housing. In June, the President signed the Executive Order 
Establishing the White House Council on Eliminating Regulatory Barriers 
to Affordable Housing. Commenting on the creation of the Council, HUD 
Secretary Carson noted that ``we can increase the supply of affordable 
homes by changing the cost side of the equation.''
    Similarly, Harvard's Joint Center for Housing Studies' most recent 
``State of the Nation's Housing'' report suggests that if current 
inventory shortages persist, costs will continue to rise. The press 
release for the report states, ``To ensure that the market can produce 
homes that meet the diverse needs of the growing U.S. population, the 
public, private, and nonprofit sectors must address constraints on the 
development process.'' This is where manufactured housing presents an 
unparalleled opportunity to provide marketwide relief.
Manufactured Housing Is Critical in Addressing Our Affordable Housing 
        Needs
    In 2018, our industry produced nearly 100,000 HUD Code homes, 
accounting for approximately 10 percent of new single-family home 
starts. These homes are produced by 34 U.S. corporations in 130 plants 
located throughout the United States.
    Manufactured housing is the largest form of unsubsidized affordable 
housing in the U.S. and the only type of housing built to a Federal 
construction and safety standard. It is also the only type of housing 
that Congress recognizes as playing a vital role in meeting America's 
housing needs as a significant source of affordable home ownership 
accessible to all Americans. Today, 22 million people live in 
manufactured housing and the industry employs tens of thousands of 
Americans nationwide.
    As efficiency in production is inextricably linked to a market's 
ability to meet supply demands, manufactured housing outperforms other 
housing production processes. Our homes are built to a Federal building 
code in a climate-controlled facility, away from the hazards and delays 
associated with outdoor construction. Our industry uses economies of 
scale to reduce the cost of materials and assembly line techniques and 
advanced production techniques to reduce overall material waste. These 
methods and practices are better for the environment and create savings 
that are passed on to the people who purchase manufactured homes.
    Manufactured housing is one solution that is helping address the 
shortage of affordable housing in this country and make the dream of 
home ownership an affordable and attainable reality for millions. The 
affordability of manufactured homes enables individuals to obtain 
housing that is often much less expensive than renting or purchasing a 
site-built home, with the average price per square foot of a 
manufactured home being half the cost of a site-built home, excluding 
land. Indeed, the recently released Housing Finance Reform Plan report 
by HUD states that ``manufactured housing plays a vital role in meeting 
the Nation's affordable housing needs.''
    While the shortage of affordable housing has affected individuals 
and families across the economic spectrum, there is an inventory 
shortage for entry level, affordable, site-built housing. New site-
built homes are generally not priced below the $200,000 price point; 
however, the vast majority of new manufactured homes are priced below 
$100,000. As a result, manufactured housing accounts for 80 percent of 
new home starts priced under $150,000.
    Moreover, studies show that current manufactured housing residents 
are highly satisfied with their decision to live in a manufactured 
home. A national study commissioned by MHI, which focused on the 
profile and experiences of current manufactured housing residents, 
found that an overwhelming 90 percent of current manufactured 
homeowners were satisfied with their home and 62 percent anticipated 
living in their home for more than 10 years:
Resident Satisfaction
  <bullet>  90 percent of residents are satisfied with their homes.

  <bullet>  71 percent of residents cite affordability as a key driver 
        for choosing manufactured housing.

  <bullet>  62 percent of residents anticipate living in their homes 
        for more than 10 years.

  <bullet>  38 percent of residents don't anticipate ever selling their 
        home.

  <bullet>  87 percent of residents are likely to recommend living in a 
        manufactured home to others.

    Additionally, the manufactured housing industry has created a new 
product category that has the potential to address this shortage of 
housing inventory while simultaneously providing the types of amenities 
and features that consumers seek in higher priced site-built homes.
    Known as CrossModT homes, these manufactured homes are a point of 
entry for home buyers who would not have previously considered 
purchasing a manufactured home. They have the potential to reach areas 
of the country where manufactured housing has, in the past, been zoned 
out by discriminatory land use regulations at the State and local 
level. CrossModT homes are placed on a permanent foundation, qualify 
for conventional financing, and are virtually indistinguishable from 
higher-priced, site-built options. This new class of factory-built home 
can also be appraised using comparable site-built homes under special 
financing programs developed by our industry and the Government 
Sponsored Enterprises, Fannie Mae and Freddie Mac.
    Prior to developing the CrossModT product, MHI conducted a national 
study to better understand what underserved, prospective home buyers 
wanted and needed when considering purchasing a home. The results of 
this study have allowed the industry to create a product that provides 
consumers high-quality homes they find desirable, and at a price they 
can afford. When asked what home features were most important to them, 
MHI's study found that prospective home buyers rated the following 
items as most important (all of which are provided for in the CrossModT 
product), in this order:

  1.  Garages

  2.  Energy Efficient Features

  3.  Pitched Roof

  4.  Premium Finishes

  5.  Upgraded Exterior
Zoning and Land Planning Restrictions on Manufactured Housing
    Manufactured homes serve many housing needs in a wide range of 
communities from rural areas where housing alternatives are few and 
construction labor is scarce and/or costly, to higher-cost metropolitan 
areas as in-fill applications. However, zoning and land planning 
ordinances have a profound impact on housing patterns. In particular, 
restrictive local ordinances--which can include significant limitations 
or prohibitions against manufactured housing--can act as barriers to 
affordable housing.
    Moreover, zoning ordinances that are exclusionary or restrictive 
with respect to manufactured housing can clearly violate the Fair 
Housing Act, as HUD and the Department of Justice (DOJ) have publicly 
recognized. According to a November 10, 2016, Joint Statement of HUD 
and DOJ, titled ``State and Local Land Use Laws and Practices and the 
Application of the Fair Housing Act'':

        Examples of land use practices that violate the Fair Housing 
        Act under a discriminatory effects standard include minimum 
        floor space or lot size requirements that increase the size and 
        cost of housing if such an increase has the effect of excluding 
        persons from a locality or neighborhood because of their 
        membership in a protected class, without a legally sufficient 
        justification.

    Across the country, there are countless State and local zoning, 
planning, and development restrictions that either severely limit or 
outright prohibit the placement of a manufactured home. These practices 
discriminate against people and families who seek the dream of home 
ownership through manufactured housing. Examples of these 
discriminatory practices include:

  1.  Outright Bans--Adoption of ordinances that eliminate or ban the 
        placement of manufactured homes in cities, localities or 
        municipalities.

  2.  Zoning Barriers--Changing zoning laws after developers have 
        purchased land to prevent the development of manufactured 
        housing communities.

  3.  Segregated Zoning--Banning manufactured homes as a ``permitted 
        use'' in residential zones and segregating them into one 
        special overlay zone in one area of the city. These areas are 
        usually far away from essential services and/or the homes act 
        as buffers to commercial zones.

  4.  Lot Size--Requiring a certain number of acres for placement of a 
        manufactured home on private land.

  5.  Value--Setting an arbitrary and capricious value that a 
        manufactured home must meet before it can be sited in a city, 
        locality or municipality.

  6.  Age--Prohibiting placement or movement of a home based upon its 
        age.

    These examples reflect a growing trend whereby local jurisdictions 
adopt land planning ordinances and utilize code enforcement that 
excludes manufactured housing without considering whether such action 
intentionally discriminates, or results in disparate treatment, against 
a protected class of persons.
Actions That Can Be Taken To Improve Manufactured Housing Availability
    In addition to passage of S. 1804, there are other actions that can 
be taken to improve the availability of manufactured housing in 
jurisdictions across the country. The manufactured housing industry has 
long advocated that, not only must HUD be more assertive in enforcing 
its preemption authority under the Manufactured Housing Construction 
Safety and Standards (MHCSS) Act, but the Department has a statutory 
mandate to do so when State and local regulatory requirements are 
inconsistent with Congressional intent.
    MHI has called on HUD to issue an updated policy statement 
concerning Federal preemption under the MHCSS Act and the Manufactured 
Housing Improvement Act of 2000. While HUD has used its authority to 
pursue individual cases where State or local jurisdictions have 
introduced requirements that are incompatible with the HUD Code or 
development restrictions that prohibit manufactured homes, the 
Department must go further and update its ``Statement of Policy 1997-1: 
State and Local Zoning Determinations Involving the HUD Code''. 
Updating this statement would galvanize HUD's pledge to facilitate the 
availability of affordable manufactured homes.
Conclusion
    In closing, MHI appreciates the opportunity to offer our ideas to 
the Committee about how to prioritize the importance of manufactured 
housing as the most affordable option to address our shortage of 
affordable housing in the country. As noted in our testimony, MHI 
strongly supports S. 1804, the ``HUD Manufactured Housing Modernization 
Act of 2019''. We urge the Committee and full Senate to pass this 
legislation, and stand ready to work with the Committee on other ways 
to reduce barriers to affordable housing and to ensure that 
manufactured housing helps enable the American dream of home ownership.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   PREPARED STATEMENT OF PEGGY BAILEY
    Vice President for Housing Policy, Center on Budget and Policy 
                               Priorities
                            November 7, 2019
    Thank you for the opportunity to testify. I am Peggy Bailey, Vice 
President for Housing Policy at the Center on Budget and Policy 
Priorities. The Center is an independent, nonprofit policy institute 
that conducts research and analysis on a range of Federal and State 
policy issues affecting low- and moderate-income families. The Center's 
housing work focuses on increasing access and improving the 
effectiveness of Federal low-income rental assistance programs.
    Seventy-five percent of households eligible for Federal rental 
assistance do not receive it due to limited funding. \1\ Families may 
wait for years to receive housing assistance, and overwhelming demand 
has prompted most housing agencies to stop taking applications 
entirely. \2\ According to the Joint Center for Housing Studies at 
Harvard University, this contributes to over 47 percent (20.5 million) 
of renter households spending more than 30 percent of their income on 
housing costs, and almost 25 percent (11 million) spending more than 50 
percent of their income on housing. \3\
---------------------------------------------------------------------------
     \1\ Center on Budget and Policy Priorities, ``Three Out of Four 
Low-Income At Risk Renters Do Not Receive Rental Assistance'', 2017, 
https://www.cbpp.org/three-out-of-four-low-income-at-risk-renters-do-
not-receive-federal-rental-assistance.
     \2\ National Low Income Housing Coalition, ``Housing Spotlight: 
The Long Wait for a Home'', Fall 2016, https://nlihc.org/sites/default/
files/HousingSpotlight-6-1-int.pdf.
     \3\ The Joint Center for Housing Studies at Harvard University, 
``The State of the Nation's Housing'', 2019, https://
www.jchs.harvard.edu/state-nations-housing-2019.
---------------------------------------------------------------------------
    The gap between housing costs and people's incomes isn't getting 
better. Recent Census data show that, after adjusting for inflation, 
between 2001 and 2018 rent costs including utilities grew by 13 percent 
but incomes rose only .5 percent. (See Figure 1.)

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    When people struggle to pay the rent, they not only face financial 
and housing instability, but they are also at heightened risk for a 
host of negative health outcomes. More generally, high housing costs 
worsen the adversity that people with low incomes experience, forcing 
them to face a persistent threat of eviction and make difficult choices 
between paying the rent and paying for medicine, food, heating, 
transportation, and other essentials. High costs may also compel people 
to live in housing or neighborhoods that are rife with health and 
safety risks. These consequences can contribute to ``toxic stress'' and 
other mental health conditions that alone can be devastating but can 
also exacerbate physical health conditions for adults and children. \4\
---------------------------------------------------------------------------
     \4\ David L. Stern, Andrea K. Blanch, Ph.D., and Sarah M. 
Steverman, ``Impact of Toxic Stress on Individuals and Communities: A 
Review of the Literature'', Mental Health America, September 2014, 
https://www.mentalhealthamerica.net/sites/default/files/
Impact%20of%20Toxic%20
Stress%20on%20Individuals%20and%20Communities-
A%20Review%20of%20the%20Literature.pdf.
---------------------------------------------------------------------------
    Youth leaving the foster care system are a particularly vulnerable 
group and are disproportionately at-risk of homelessness and housing 
instability. These young adults often have limited or no family 
financial or emotional support, they can struggle to continue their 
educations or succeed in jobs, and if employed, often are paid low 
wages. They are navigating the adult world at a young age, with few of 
the resources--both financial and the support of caring, mature 
adults--that middle- and high-income young adults often rely on.
    Federal and State policymakers have an obligation to do more to 
help these young people, who have been the responsibility of both 
Federal and State government during formative years, to transition 
successfully to independence. This testimony focuses on what can be 
done to help more young people who have exited foster care to find 
decent, stable, affordable places to live, which is so important to 
protecting them from further hardship and trauma and helping them to 
transition successfully to adulthood.
    Specifically, it's essential that Congress:

  1.  Advance H.R. 4300 Fostering Stable Housing Opportunities Act of 
        2019, which:

    a.  Expands foster youths' access to Housing Choice Vouchers by 
        streamlining the administration of the Family Unification 
        Program (FUP).

    b.  Incentivizes housing agencies by allowing HUD to distribute 
        additional administrative support to agencies that serve these 
        young people.

    c.  Allows housing agencies to lengthen the duration of assistance 
        for foster youth who are working, in school, receiving 
        training, engaged in substance use treatment services, are 
        parents of young children, or have documented medical 
        conditions that limits their ability to work or attend school.

  2.  Accept the proposed funding increases in the FUP targeted to at-
        risk foster youth that are currently included in both the House 
        and Senate fiscal year 2020 appropriations bills.

  3.  Protect youth from discrimination and ensure access to housing 
        and social service supports.
High Rates of Homelessness Put Foster Youth at Risk and Deepen the 
        Challenges They Must Overcome To Transition Successfully to 
        Independence
    Of the approximately 400,000 children in foster care, some 20,000 
young people age out of foster care each year; in some States this 
happens at age 18 while other States extend foster care modestly to 
ages 19 to 21. \5\ \6\ Foster youth enter adulthood facing challenges 
that place them at a severe disadvantage relative to other young 
people. While large shares of other young adults live at home with 
their parents--or attend a residential college or university--and 
receive substantial financial and emotional support from their parents, 
foster youth typically have few financial resources and receive little 
or no family support. In addition, many enter adulthood with histories 
of trauma, incomplete educational preparation, and poor job skills. \7\
---------------------------------------------------------------------------
     \5\ For background: National Conference of State Legislatures, 
Extending Foster Care Beyond 18, http://www.ncsl.org/research/human-
services/extending-foster-care-to-18.aspx.
     \6\ ``Children Exiting Foster Care by Exit Reason in the United 
States'', National Kids Count, https://datacenter.kidscount.org/data/
tables/6277-children-exiting-foster-care-by-exit-
reason?loc=1&loct=2#detailed/2/2-53/false/871,870,573/2632/13050.
     \7\ Amy Dworsky, et al., ``Midwest Evaluation of the Adult 
Functioning of Former Foster Youth'', Chapin Hall at the University of 
Chicago, 2011, https://www.chapinhall.org/research/midwest-evaluation-
of-the-adult-functioning-of-former-foster-youth/.
---------------------------------------------------------------------------
    Based on their representation in the United States as a whole 
compared to their representation in the foster care system, a 
disproportionate share of youth exiting foster care are Black or 
Hispanic and may face racism and discrimination when seeking housing, 
jobs, and educational supports. \8\ Lesbian, Gay, Bisexual, 
Transgender, and Questioning (LGBTQ) young people are also over-
represented in the foster care system and face unique challenges--such 
as job discrimination and trauma that can stem from not being accepted 
by their families and communities of origin--as they transition to 
adulthood that can be more difficult if they are uncertain how they 
will afford a place to live or take care of other basic needs. Young 
people who exit foster care strive to make progress--about three-
quarters are either enrolled in an educational program or working at 
age 21--but their experience in foster care, lack of financial 
resources, and the lack of support from caring, mature adults can make 
it difficult to transition successfully to independence. \9\
---------------------------------------------------------------------------
     \8\ Child Welfare Information Gateway, ``Foster Care Statistics 
2017'', Numbers and Trends 2019, https://www.childwelfare.gov/pubPDFs/
foster.pdf.
     \9\ ``Highlights From the National Youth in Transition Database 
Survey: Outcomes Reported by Young People at Ages 17, 19, and 21'', 
Children's Bureau of the Administration for Children and Families, 
Department of Health and Human Services, 2016, https://www.acf.hhs.gov/
sites/default/files/cb/nytd-data-brief-5.pdf.
---------------------------------------------------------------------------
    Deepening the challenges, many of these young people struggle to 
find a stable place to live. About 1 in 4 former foster youth who are 
21 years old report having been homeless at least once during the prior 
2 years, while other surveys find that as many as 1 in 3 experience 
homelessness by age 26. \10\ Not surprisingly, foster youth make up a 
large share of the broader population of youth who are homeless--as 
many as one-half according to one survey. \11\ Surveys also indicate 
that, of the foster youth who experience homelessness, more than half 
experience homelessness repeatedly or for extended periods. \12\ Often, 
the experience of homelessness extends well into adulthood.
---------------------------------------------------------------------------
     \10\ See ``Highlights From the National Youth in Transition 
Database Survey: Outcomes Reported by Young People at Ages 17, 19, and 
21'', op cit.; and Amy Dworsky, et al., ``Homelessness During the 
Transition From Foster Care to Adulthood'', American Journal of Public 
Health, Vol. 102, No. S2, 2013, https://www.ncbi.nlm.nih.gov/pmc/
articles/PMC3969135/.
     \11\ ``Family and Youth Services Bureau Street Outreach Program: 
Data Collection Study Final Report'', Administration for Children and 
Families Children's Bureau, 2016, https://www.acf.hhs.gov/sites/
default/files/fysb/data-collection-study-final-report-street-outreach-
program.pdf.
     \12\ Amy Dworsky, et al., 2011, op cit.
---------------------------------------------------------------------------
    Homelessness and other types of housing insecurity make it very 
hard for young adults to succeed in school or work. While few studies 
focus on homelessness' effects on the educational achievement of foster 
youth, there's reason for concern. Numerous studies find that 
homelessness undermines children's school achievement generally, and 
studies find that a larger-than-average share of foster youth are 
already not making adequate progress in school at the time of their 
emancipation. At age 19, for example, nearly half of foster youth have 
not completed high school, and nearly one-third still have not by age 
21. \13\
---------------------------------------------------------------------------
     \13\ ``Family and Youth Services Bureau Street Outreach Program: 
Data Collection Study Final Report'', op cit.
---------------------------------------------------------------------------
    Homelessness also increases foster youths' risk of rape and 
assault, substance use, depression, and suicide. \14\ A survey of 
homeless youth in 11 cities found, for example, that 15 percent had 
been raped or sexually assaulted, 28 percent had agreed to have sex in 
exchange for a place to spend the night, and 32 percent had been 
beaten. Almost two-thirds reported symptoms of depression, and more 
than one-third reported using hard drugs. \15\
---------------------------------------------------------------------------
     \14\ Ibid.
     \15\ Ibid.
---------------------------------------------------------------------------
Expanding Foster Youths' Access to Housing Vouchers Is Part of the 
        Solution
    Federal and State agencies have a special responsibility to help 
former foster youth transition successfully to adulthood. State 
agencies--with some funding and oversight from the Federal Government--
have legal custody of children in foster care and are responsible for 
ensuring they receive adequate care. These agencies in effect stand in 
for parents unable to care for their children. But most American 
parents continue to help their children in various ways after they turn 
18 (or even 21).
    In light of foster youths' extreme vulnerability and the special 
responsibility that Federal and State agencies have for them, Congress 
should do more to help them transition successfully to independence. 
Child welfare agencies clearly have an important role to play, and 
policymakers have approved several major pieces of legislation in 
recent years aimed at encouraging and equipping child welfare agencies 
to expand services and support for young people up to age 21, and even 
beyond in some cases. \16\ But Federal, State, and local housing 
agencies also have important roles to play, and Congress should look 
for opportunities to strengthen their roles, in part by strengthening 
the housing assistance programs they administer, as well as to improve 
the coordination of housing and child welfare agencies in supporting 
former foster youth.
---------------------------------------------------------------------------
     \16\ For instance, the Fostering Connections to Success and 
Increasing Adoptions Act of 2008 and the Families First Prevention 
Services Act of 2018.
---------------------------------------------------------------------------
    One important tool is the Federal Housing Choice Voucher program. 
Created in the 1970s, the housing voucher program helps low-income 
people pay for housing they find in the private market. A network of 
2,200 State and local housing agencies administer the program. More 
than 5 million people in 2.2 million low-income households use housing 
vouchers. Nearly all of these households contain children, seniors, or 
people with disabilities.
    Rigorous research consistently finds that housing vouchers sharply 
reduce homelessness, housing instability, overcrowding, and other 
hardships. \17\ Indeed, housing vouchers have played a central role in 
policymakers' successful efforts to reduce veterans' homelessness, 
which has declined by nearly 50 percent since 2010, evidence that well-
resourced, targeted programs can move the needle on a difficult 
problem.
---------------------------------------------------------------------------
     \17\ ``Housing Vouchers Work'', Center on Budget and Policy 
Priorities, 2017, https://www.cbpp.org/housing-vouchers-work.
---------------------------------------------------------------------------
    Housing vouchers are also cost-effective and flexible. For 
instance, because they are portable, families may use them to move to 
safer neighborhoods with quality schools and other opportunities that 
can improve their health and well-being, as well as their children's 
chances of long-term success. (Many young adults who have left foster 
youth are young parents, making this evidence relevant for this 
population.) Housing agencies may also ``project-base'' a share of 
their vouchers--that is, link the housing voucher to a particular 
housing development where, for example, residents may have access to 
services that help them to remain stably housed and improve their well-
being. Project-based vouchers are used successfully in supportive 
housing, for example, which connects affordable housing with mental 
health and other services that support people and help them remain 
stably housed, and has been used successfully to reduce homelessness 
among people who have lived on the street or in shelters for long 
periods, including youth exiting the foster care system. \18\ Project-
based vouchers may offer opportunities for housing agencies to partner 
with child welfare agencies and community partners to link housing and 
other forms of support for former foster youth learning to navigate the 
adult world.
---------------------------------------------------------------------------
     \18\ Ehren Dohler, et al., ``Supportive Housing Helps Vulnerable 
People Live and Thrive in the Community'', Center on Budget and Policy 
Priorities, May 31, 2016, https://www.cbpp.org/research/housing/
supportive-housing-helps-vulnerable-people-live-and-thrive-in-the-
community.
---------------------------------------------------------------------------
    Young people who have left foster care are eligible for Housing 
Choice Vouchers. But, as stated above, there's a severe shortage of 
housing vouchers overall: only 1 in 4 eligible households receives a 
voucher or other Federal rental assistance due to limited funding, and 
applicants typically wait years to receive aid. Under authority 
provided by Congress and the President, the Department of Housing and 
Urban Development (HUD) makes a small pool of vouchers (Family 
Unification Program or FUP vouchers) available to State and local 
housing agencies that partner with child welfare agencies to help at-
risk youth and families. But there are only 20,000 FUP vouchers in use 
total and only a small share of the vouchers go to former foster youth.
    The geographic reach of FUP vouchers is limited. Only some 280 
agencies--or roughly 1 out every 8 of the more than 2,200 housing 
agencies nationwide--are even authorized to administer FUP vouchers. 
\19\ Because the vast majority of housing agencies administer vouchers 
within a limited geographic area (State housing agencies are a major 
exception), this limits youth and families' access to FUP vouchers 
based on geography, in addition to the overall shortage of the 
vouchers.
---------------------------------------------------------------------------
     \19\ A list of housing agencies that administer FUP vouchers is 
available on the HUD website, https://www.hud.gov/sites/dfiles/PIH/
documents/Copy-of-FUP-Awards-All%20Years.pdf.
---------------------------------------------------------------------------
    Most FUP vouchers go to families, not former foster youth. Of the 
nearly 20,000 FUP vouchers that are currently in use, less than 1,000 
are being used by former foster youth, according to HUD. \20\ Most FUP 
vouchers, understandably, go to families to help prevent the need for a 
child to be removed and placed in foster care or to families that, with 
a voucher, will be able to reunite with children placed in foster care.
---------------------------------------------------------------------------
     \20\ HUD PIH Notice 2019-20, https://www.hud.gov/sites/dfiles/PIH/
documents/PIH-2019-20.pdf.
---------------------------------------------------------------------------
Streamlining and Strengthening FUP Vouchers for Foster Youth
    The Fostering Stable Housing Opportunities Act of 2019 (HR 4300), 
sponsored by Representatives Dean (D-PA), Turner (R-OH), Bass (D-CA), 
and Stivers (R-OH), would institute several important changes to 
improve the efficacy of FUP vouchers for foster youth. Specifically, 
the bill, which the House Financial Services Committee recently 
reported out on a unanimous, bipartisan vote, would:
    Streamline the FUP voucher allocation process to enable many more 
housing agencies to make them available to eligible foster youth. 
Historically, HUD has been required to allocate FUP vouchers to housing 
agencies through a cumbersome, time-consuming competitive process that 
has limited the number of housing agencies that administer FUP 
vouchers. This, combined with inadequate funding, means that some 
foster youth have no chance of receiving a voucher; if funding is 
increased, additional agencies could become eligible to administer FUP 
vouchers, but the benefits would remain concentrated in too few 
geographic areas. The Fostering Stable Housing Opportunities Act would 
authorize HUD to make FUP vouchers available to every housing agency 
that currently administers vouchers and would like to administer FUP 
vouchers, so long as the agency meets program requirements (and subject 
to the availability of funds). The goal of this more streamlined 
process is to enable housing agencies to receive a voucher from HUD 
when a child welfare agency requests one on behalf of an at-risk young 
person. This ``on-demand'' process--particularly if paired with 
additional vouchers, as proposed by both the House and Senate 
appropriations bills--would better meet the needs of at-risk foster 
youth, particularly in communities where FUP vouchers are not currently 
available.
    Support foster youths' participation in educational, training, and 
work activities. The Fostering Stable Housing Opportunities Act also 
encourages housing agencies and child welfare agencies to connect youth 
to supports that can help them become independent. It also would allow 
youth to use their FUP vouchers for up to 60 months (i.e., 24 months 
beyond the current limit of 36 months) if they are enrolled in 
educational or training programs, or are working. Supporting youth for 
an extended period can be critical to helping them complete educational 
or training programs and provide an incentive for them to engage in 
activities that help them advance towards independence.
    Provide supplemental funding for housing agencies to support their 
partnerships with child welfare agencies and connect youth to services 
and other resources in the community.
    It is important to note that 71 organizations representing foster 
youth from across the country--spearheaded by Foster Action Ohio, an 
organization that is led by foster care alumni and supported by the 
National Center for Housing and Child Welfare--not only support the 
Fostering Stable Housing Opportunities Act but have played a central 
role in designing and drafting the bill. \21\
---------------------------------------------------------------------------
     \21\ See support letter for H.R. 4300--https://
static1.squarespace.com/static/5a7dcc2a0100277e36127414/t/
5dc1d1645882823ab7680c1b/1572983140803/
Thank+you+letter+to+Reps+Dean+Turner+Bass++Stivers+2019+FINALMOST+1.0.pd
f.
---------------------------------------------------------------------------
Funding More FUP Vouchers for Foster Youth
    These important policy changes must be accompanied by additional 
funding for FUP vouchers in order to expand the availability of rental 
assistance for former foster youth and enable more of them to avoid 
homelessness during their transition. Fortunately, there are 
opportunities on this front, as well. Both the House and Senate 
versions of the Transportation-HUD appropriations bill for fiscal year 
2020 include $20 million to expand the availability of FUP vouchers for 
at-risk foster youth. This funding would enable more than 2,000 young 
people who have exited foster care and are at-risk of homelessness to 
live in decent, stable housing. The House bill also includes an 
additional $20 million for FUP vouchers (i.e., $40 million in total for 
FUP, some of which would be used to provide housing vouchers to at-risk 
families). Congress should make it a priority to include these funds--
including the additional funding for new FUP vouchers for at-risk 
families in the House bill--in the final fiscal year 2020 
appropriations legislation that it will negotiate in coming weeks.
Protect Youth From Discrimination
    As mentioned above, LGBTQ youth are over-represented in the foster 
care system. LGBTQ people are at high risk of experiencing violence, 
homelessness, and poor outcomes that threaten their mental and physical 
health. \22\ Unfortunately, the Administration has put forward two 
proposed rules--one from the Department of Health and Human Services 
(HHS) and one from HUD--that would put LGBTQ people, including young 
people generally and former foster youth specifically, at higher risk 
of sleeping on the streets or taking dangerous steps to access housing. 
These rules would permit federally funded homeless shelter providers, 
including those serving runaway and homeless youth, and other social 
service providers to deliver vital services to this population. \23\ 
\24\ Congress should call on the Administration to withdraw the HHS and 
HUD proposed regulations that would to roll back equal access and 
antidiscrimination protections for LGBTQ people.
---------------------------------------------------------------------------
     \22\ ``LGBTQ Youth and the Foster Care System'', Human Rights 
Campaign and Foster Club, https://assets2.hrc.org/files/assets/
resources/HRC-YouthFosterCare-IssueBrief-FINAL.pdf.
     \23\ ``Revised Requirements Under Community Planning and 
Development Housing Programs'', https://www.reginfo.gov/public/do/
eAgendaViewRule?pubId=201904&RIN=2506-AC53.
     \24\ Department of Health and Human Services, Office of the 
Assistant Secretary for Financial Resources, ``Health and Human 
Services Grant Regulation'', 45 CFR Part 75, https://www.hhs.gov/sites/
default/files/hhs-grants-regulation-nprm.pdf.
        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARREN
                     FROM IVORY N. MATHEWS

Q.1. In Massachusetts, more than 375,000 people live in 
households with the support of Federal rental assistance, the 
majority of whom are seniors, children, or individuals with 
disabilities. \1\ Commonwealth residents living in State-
supported housing public units are protected by a 2005 law 
requiring most buildings to have a carbon monoxide alarms, but 
Federal law still does not require these life-saving alarms for 
federally assisted housing--putting hundreds of thousands of 
individuals across the country at risk. \2\
---------------------------------------------------------------------------
     \1\ Center on Budget and Policy Priorities, ``Federal Rental 
Assistance Face Sheets: Massachusetts'', https://www.cbpp.org/research/
housing/federal-rental-assistance-fact-sheets#MA.
     \2\ Commonwealth of Massachusetts Department of Housing and 
Community Development, Public Housing Notice, ``DHCD Carbon Monoxide 
Alarm Compliance Program for State-Supported Public Housing''.
---------------------------------------------------------------------------
    In your written testimony you mentioned the estimated 70 
billion dollar capital needs backlog in public housing. How 
does this backlog impact affordable housing providers' ability 
to comply with health and safety needs, including the purchase 
and installation of carbon monoxide detectors?

A.1. The 70 billion dollar capital needs backlog impacts our 
ability to maintain the properties to current building codes, 
including the installation of carbon monoxide detectors. The 
age of the properties combined with the lack of capital funds 
drastically impacts affordable housing providers' ability to 
adequately increase the useful life of the properties.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
           SENATOR CORTEZ MASTO FROM IVORY N. MATHEWS

Q.1. The CO ALERTS Act of 2019 requires public housing agencies 
to ensure the installation of carbon monoxide alarms in each 
dwelling unit with gas utilities.
    Please estimate the cost of installation of a carbon 
monoxide detector per unit? Does the cost vary by the number of 
bedrooms?

A.1. The standard stand-alone carbon monoxide detector retails 
for roughly $45 per unit, depending on the type. CO detectors 
come in several options: battery-operated, AC-powered, and some 
come incorporated into smoke detectors. Installation of these 
types is typically less than $20 per unit.
    There are also system connected carbon monoxide detectors 
that are installed by the manufacturer. Installation of these 
types can range from a few hundred dollars to thousands, 
depending on the sophistication of the system.
    Chapter 9 of 11 of the 2018 publication of the 
International Fire Code sets forth guidelines requiring the 
installation of carbon monoxide detectors inside every bedroom, 
outside of standard sleeping areas, and one on every floor of a 
home.

Q.2. Based on your experience and the statutory language, what 
is the estimated cost for carbon monoxide detector installation 
per appropriate unit in order to be compliant with the CO 
ALERTS Act?

A.2. Based on my experience and interpretation of the statutory 
language, the estimated cost for the installation of a standard 
stand-alone carbon monoxide detector is approximately $150 
(materials and labor) for a one story one bedroom unit.

Q.3. Please elaborate on your ideas to expand public-private 
partnerships to address the affordable housing crisis.

A.3. There is an urgent need to develop more affordable housing 
across the country. One of the tools to address the affordable 
housing crisis is the Affordable Housing Credit Improvement Act 
of 2019 (S. 1703/H.R. 3077).
    Since its creation in 1986, the housing credit has created 
over three million new homes for low-income individuals; 
virtually no affordable housing is produced without using the 
credit. It's an important tool utilized by Public Housing 
Authorities (PHAs) like mine, who use the housing credit to 
enter into innovative public-private partnerships to both 
develop new affordable housing and preserve the Nation's 
existing affordable housing stock. The housing credit is a 
particularly critical component to Rental Assistance 
Demonstration deals.
    However, the limited availability and the popularity of the 
housing tax credit have made it very competitive in many 
States.
    The Affordable Housing Credit Improvement Act of 2019 (S. 
1703/H.R. 3077) is bipartisan legislation to expand and 
strengthen the Low-Income Housing Tax Credit. Specifically, the 
bill would increase the availability of the housing credit by 
50 percent over 5 years, permanently authorize the 4 percent 
housing credit, and make other changes that would help make it 
a more effective tool.
    The housing credit has a proven track record of producing 
affordable housing and I hope you will join on as a cosponsor 
in support of this important legislation.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARREN
                         FROM MARK YOST

Q.1. In your written testimony, you stated that manufactured 
housing provides one solution to the national shortage of 
affordable housing, and that manufactured homes constitute 80 
percent of new home starts that are priced less than $150,000. 
Many manufactured homeowners rent the land underneath their 
homes, making the affordability of their housing dependent on 
the actions of the land owner. Private equity firms have begun 
purchasing a substantial number of Manufactured Housing 
Communities (MHC), and now own more than 150,000 home sites. 
\1\ Private equity firms seek to make high returns on their 
investments, and residents in private equity-owned MHCs report 
the companies have instituted significant rent increases that 
may be unaffordable for current residents.
---------------------------------------------------------------------------
     \1\ Private Equity Stakeholder Project, ``Private Equity Giants 
Converge on Manufactured Homes'', February 2019, p. 3, https://
pestakeholder.org/wp-content/uplonds/2019/02/Private-Equity-Glants-
Converge-on-Manufactured-Homes-PESP-MHAction-AFR-021419.pdf.
---------------------------------------------------------------------------
    How has the rise of private equity ownership of MHCs 
impacted the affordability of manufactured housing?

A.1. Despite a few anecdotes cited in the news and by some 
advocacy groups, the evidence does not demonstrate an overall 
negative impact on affordability. Nationwide, in recent years, 
site rent increases in manufactured home communities have 
averaged only 3 percent per year, which is below average 
housing cost increases experienced in both single-family and 
rental housing over the same period. Moreover, the vast 
majority of manufactured home communities are professionally 
owned and operated and provide high quality, affordable, and 
sustainable housing across the United States. To verify our 
assessment, in 2018 MHI commissioned an independent, national 
research project, which determined that the majority of land-
lease community residents are ``highly satisfied'' with their 
housing choice.

Q.2. Owners of manufactured homes who can no longer afford the 
rent on their land may be forced to sell or abandon their homes 
if they have to move or are evicted, due to the high cost of 
relocating a manufactured home. Has the Manufactured Housing 
Institute seen any impact of increasing private equity 
ownership of MHCs on the number of manufactured homeowners 
forced to abandon their homes due to unaffordable rent 
payments?

A.2. It is important to recognize that, in certain situations, 
private equity ownership of MHCs is needed to sustain the 
community and protect homeowners from a forced sale or having 
to abandon their homes. Funds are necessary to complete long-
overdue infrastructure repairs, provide maintenance, and 
modernize an aging community. Simply put, there is no single 
MHC ownership model that is more appropriate or beneficial than 
any other. That is why we see a range of ownership structures, 
including independent ``Mom and Pop'' communities, resident-
owned associations, small-business models, and communities 
owned and operated by sophisticated investors, which may 
include private equity ownership.
    Moreover, it is critical to keep in mind that raising rents 
and evicting tenants is counter to the prevailing business 
model of every land-lease community owner-operator who relies 
on stable rents and high occupancy. Like the owner of an 
apartment complex or other rental housing type, landlease 
community owners have every interest in ensuring they can 
provide quality residential services while also ensuring that 
the community remains competitive in the local housing market 
so that occupancy remains high. These considerations are the 
same for resident-owned communities as for investor-owned 
communities--and both take rent increases very seriously.
    Factors that may drive rent increases apply equally to all 
housing types, including resident-owned communities, 
condominiums, cooperatives, homeowners' associations, 
apartments, single-family detached homes, townhomes, and 
Government-supported housing. Residents in all housing types, 
whether single or multifamily housing, will experience 
increases in costs over time due to maintenance expenses, 
infrastructure improvements, taxes, insurance, and inflation, 
as well as the long-term trend of increasing market valuation 
of real estate and rental rates.

Q.3. What protections are necessary to ensure that individuals 
and families who own manufactured homes do not have their home 
ownership put at risk by predatory rent?

A.3. In a March 2016 letter to the Federal Housing Finance 
Agency (FHFA), the Manufactured Housing Institute (MHI) 
recommended several protections for residents of land-lease 
communities (e.g., pad lease protections). MHI's letter was in 
response to FHFA's proposed rule for the ``Enterprise Duty to 
Serve Underserved Markets''. These recommendations included 
protections such as minimum lease terms and advance notice of a 
pending rent increase. Many of MHI's suggestions were 
incorporated into the final Duty to Serve Rule. Further, 
several jurisdictions already have laws in place that further 
protect manufactured-home homeowners. For example, most States 
require written, advance notice of rent increases, and the fact 
that rent increases could occur in the future is usually 
disclosed prior to occupancy.
    MHI's National Communities Council, which is comprised of 
community owners, managers, operators, and individuals or 
companies whose business model supports the development, 
finance, or operation of MHCs, recently reaffirmed its 
commitment to ensuring that community residents are protected 
and provided with the highest quality of lifestyle by adopting 
a national Code of Ethics.
    MHI also focuses on education, training, and best practices 
to help guide community owners and managers in the management 
of their communities. This includes MHI's Accredited Community 
Manager training and certification, as well as seminars, 
webinar courses, and other educational events throughout the 
year.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
              SENATOR CORTEZ MASTO FROM MARK YOST

Q.1. What is the risk of hidden dangers like carbon monoxide 
poisoning in manufactured homes? In light of the comments you 
gave about the safety of today's manufactured homes, how do 
manufactured homes ensure the safety of families from hidden 
household dangers like carbon monoxide, fire, lead poisoning, 
and mold or mildew?

A.1. In modern manufactured homes, there is minimal risk of 
hidden health-safety dangers, including exposure to unsafe 
levels of carbon monoxide. This is because the Manufactured 
Home Construction and Safety Standards Act (MHCSS Act), 
including the implementing regulations in the HUD Code, require 
manufacturers to comply with strict construction and safety 
standards before a home is certified for sale. This robust 
Federal standard (often more stringent than State and local 
standards for site-built homes) ensures consistency and 
reliability in home safety regardless of where a home is 
located. The Construction and Safety Standards in the HUD Code 
include health and safety requirements concerning:

  <bullet>  Fire safety, exit facilities, and emergency egress

  <bullet>  Wind loads and windstorm provisions

  <bullet>  Snow and roof load provisions

  <bullet>  Electrical systems and approved wiring methods

  <bullet>  Formaldehyde emission levels

  <bullet>  Window safety glazing protections

    The HUD Code's Model Installation Standards also include 
site preparation and installation requirements applicable to:

  <bullet>  Flood hazard areas

  <bullet>  Site drainage and runoff

  <bullet>  Ground moisture control

    Finally, the HUD Code accommodates State and local 
requirements, so manufacturers can design and build homes that 
include fire suppression systems (i.e., fire sprinklers), and 
carbon monoxide and radon gas detection and mitigation systems. 
In fact, the Manufactured Housing Institute (MHI), our 
industry's most prominent advocate in Washington, has long-
supported the adoption of voluntary HUD Code construction 
standards should a locality require additional health-safety 
requirements in residential applications, such as fire 
suppression systems. In addition, on January 31, 2020, HUD 
published in the Federal Register a Proposed Rule that included 
an update to the HUD Code to require the installation and 
designate the location of carbon monoxide detectors in 
manufactured homes, which MHI has consistently supported.

Q.2. During the hearing, you stated that building a 
manufactured home is much more sustainable or energy efficient 
than constructing site-built homes. Please provide details of 
the average energy costs for your units in different types of 
climates.

A.2. The construction of a manufactured home produces 
significantly less waste than the construction of a site-built 
home. The controlled environment of the factory-built process 
not only offers consumers unmatched quality and affordability 
due to technological advancements and other advantages, but the 
industry has also become a pioneer in the development of 
processes that value efficiency and reduce waste. With an 
emphasis on safety and energy efficiency, MHI and its members 
are constantly developing new initiatives and technologies, 
such as comprehensive recycling programs. Today's modern 
manufacturing plants are so efficient that in fewer than 2 
weeks they can build a home that is ready for delivery and 
installation with no more scrap waste than can fill a 55-gallon 
garbage barrel. Everything else is reused or recycled.
    With respect to the energy efficiency of manufactured 
homes, just like site-built homes manufactured homes are 
constructed and fitted with energy efficient features that are 
tailored to the climate demands of the region in which each 
home will be sited. Just like a site-built home, apartment 
building, or condominium complex, a manufactured home's utility 
and energy costs are affected by the climate of their locality, 
and each manufactured homeowners' energy and utility needs will 
differ based on the climate of their locality.

Q.3. In markets where you offer homes that are more energy 
efficient than the standard home you offer, do you quantify the 
cost savings these homes offer and how these can offset higher 
initial costs?

A.3. While the MHCSS Act and the HUD Code require minimum 
energy efficiency standards, manufacturers today produce homes 
that perform far beyond those minimum standards. Whenever 
possible, Skyline Champion also works in coordination with its 
retail partners to offer energy efficient upgrades and other 
optional features that provide additional cost savings to the 
consumer. Our goal is to empower consumers by providing them 
with several options at different price points, so they can 
decide what best fits their personal housing needs and 
financial profile. Information on the functionality and long-
term cost savings advantages that come with certain energy 
efficient upgrades and optional features can be provided by the 
vendors and retailer partners that manufacturers work with.

Q.4. How many manufactured housing plants are located in 
Nevada?

A.4. Currently, there are no manufactured housing plants in 
Nevada.

Q.5. If you have data on manufactured homes by age and by 
State, please share that. For example, how many manufactured 
homes built prior to 1980 are in each State? What about homes 
built after 1994?

A.5. Attached is a breakdown of the number of occupied 
manufactured home housing units in each State (Attachment 1), 
and the number of new manufactured homes shipped by State in 
2018 (Attachment 2). There are 63,237 occupied housing units 
that are manufactured homes in Nevada, which is 5.8 percent of 
all occupied housing units in the State. In 2019, 810 new 
manufactured homes were shipped to Nevada.

Attachment 1

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Attachment 2

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Q.6. If you have data on manufactured home communities by 
State, please share that information. How many manufactured 
home communities exist in each State?

A.6. There are almost 40,000 land-lease communities in the 
U.S., with 4.2 million estimated home sites. According to the 
U.S. Census Bureau, 37 percent of all new manufactured homes 
are placed in communities.

Q.7. Nevada has tremendous capacity for solar power. In what 
ways should the modernization of manufactured homes include 
energy-efficient products like solar panels and the like?

A.7. While the MHCSS Act and the HUD Code require minimum 
energy efficiency standards, manufacturers today produce homes 
that perform far beyond those minimum standards. Whenever 
possible, Skyline Champion also works in coordination with its 
retail partners to offer energy efficient upgrades and other 
optional features that provide additional cost savings to the 
consumer. These features can include solar panels.

Q.8. Please explain how manufactured homes might appreciate in 
value and allow home buyers to sell their home and earn a 
financial benefit on the sale.

A.8. Just like a site-built home, several factors can affect 
the value of a manufactured home, including its age, size, 
location, how well it is maintained, and how often it has been 
updated. No single factor dictates valuation, and it is not 
uncommon for homeowners to sell their homes for a profit. The 
Federal Housing Finance Agency's (FHFA) 2018 Q2 Housing Price 
Index Report included an article illustrating that, according 
to Fannie Mae and Freddie Mac's data, manufactured homes have 
experienced pricing trends vastly similar to site-built homes; 
the report reflects that since 1995, prices have increased by 
approximately 120 percent for manufactured homes, compared to 
roughly 140 percent for site-built homes.

Q.9. Please describe the various housing finance options your 
staff (including those of your subsidiaries and affiliated 
companies)--in factories or on lots--recommend or share 
information about to buyers.
    What financing options do you mention to buyers?
    Do you require staff to advise eligible borrowers of both 
personal property and mortgage loans?
    Do you market homes in languages other than English?
    If you do, what financing options are those buyers 
provided?
    Do those buyers receive financial documents in the language 
used to market to them?

A.9. As noted in my testimony, other promising funding sources 
for affordable manufactured housing rentals are the HUD CDBG 
and HOME programs, which provide billions of dollars each year 
to localities for housing and community development activities 
for low- and moderate-income families. CDBG and HOME can be 
used not just for the cost of manufactured homes being rented, 
but also for the infrastructure costs of the communities in 
which the units are located.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SINEMA
                         FROM MARK YOST

Q.1. The Low Income Housing Tax Credit (LIHTC) plays a pivotal 
role in financing the construction of affordable housing. With 
respect to manufactured housing and modular housing, what role 
does LIHTC play in securing the necessary financing to deliver 
safe, affordable homes for Arizona families?

A.1. The Low-Income Housing Tax Credit (LIHTC) provides 
critical equity financing for construction and substantial 
rehabilitation of affordable rental housing units. However, the 
majority of manufactured homes are occupied by homeowners, 
where the family or individual owns the unit. Unfortunately, 
the LIHTC cannot be used in circumstances where the 
manufactured home is owned by the homeowner, regardless of 
whether the homeowner also owns the land upon which the home is 
cited.
    However, we are beginning to see developers of manufactured 
home communities electing to rent out the manufactured home 
units on affordable terms. While we are not aware of widespread 
use of the LIHTC for this purpose, we do see this as a 
promising option to provide critical equity to help fund these 
units in such communities in order to promote and enhance 
affordability.
    As noted in my testimony, other promising funding sources 
for affordable manufactured housing rentals are the HUD CDBG 
and HOME programs, which provide billions of dollars each year 
to localities for housing and community development activities 
for low- and moderate-income families. CDBG and HOME can be 
used not just for the cost of manufactured homes being rented, 
but also for the infrastructure costs of the communities in 
which the units are located.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                       FROM PEGGY BAILEY

Q.1. Ms. Bailey, I have been working to develop a project-based 
``renters' credit'' that would help create additional units of 
deeply targeted affordable housing.
    How would a project-based tax credit aimed at housing 
providers help to create affordable units for low-income 
households?

A.1. A project-based renters' tax credit would be an important 
new measure to make rents affordable to the lowest-income 
families, who are far more likely than other families to pay 
very high shares of their income for housing and to be at risk 
of eviction and homelessness. States would allocate credits to 
rental housing owners, who would reduce rent and utility 
charges to 30 percent of the tenant's income and receive a 
Federal tax credit in exchange.
    The credit would be a flexible tool that States could use 
to advance a range of key policy priorities. For example, 
States could use the credit to support housing for families 
with children in high-opportunity neighborhoods with strong 
schools, to prevent displacement in gentrifying urban areas, 
for supportive housing that will help further reduce chronic 
homelessness, or to enable low-income seniors or people with 
disabilities to live in the community rather than being placed 
in nursing homes or other institutions.
    The credit would complement the existing Low-Income Housing 
Tax Credit (LIHTC), which has proven highly effective in 
supporting construction and rehabilitation of affordable 
housing but generally does not on its own make units affordable 
to the poorest families. The renters' credit would reduce rents 
to levels extremely low-income families can afford in LIHTC 
developments and other buildings.

Q.2. HUD recently put forward a Proposed Rule on ``Disparate 
Impact'' that would undermine Fair Housing Act protections 
against discrimination.
    What effect would the Proposed Rule have on renters?

A.2. HUD's proposed rule would make it significantly harder for 
renters and others to fight discriminatory housing policies and 
practices that restrict access to housing or perpetuate 
segregation and other disparities. The proposed changes would 
overwhelmingly tip the scales in favor of landlords and other 
defendants, letting them keep policies and practices that 
prevent people of color, women, families with children, people 
with disabilities, and other renters from having the fair 
access to housing that the Fair Housing Act was intended to 
protect. By severely limiting renters' ability to bring and win 
a disparate impact claim, the proposed rule would effectively 
permit discriminatory housing practices against renters to 
continue and increase.
    Low-income renters already have limited affordable housing 
options. Renters' incomes have long trailed rising housing 
costs; between 2001 and 2018, after adjusting for inflation, 
median renter household income rose by just 0.5 percent while 
rents rose 13 percent. Being denied access to housing due to 
discriminatory policies or practices narrows renters' potential 
housing pool even more. With fewer options, families may have 
to accept substandard housing, pay more for rent than they can 
afford, and have little choice about in which neighborhoods 
they live, all of which can threaten families' economic and 
educational outcomes and risk housing instability and 
homelessness. The proposed rule could also undermine the LIHTC 
program's ability to improve neighborhood choice by making it 
substantially harder to stop practices that relegate LIHTC 
developments to low-opportunity, ``minority concentrated'' 
neighborhoods.
    Renters with disabilities and renters of color--the two 
groups most likely to report experiencing housing 
discrimination--could be particularly affected.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARREN
                       FROM PEGGY BAILEY

Q.1. In your written testimony you discuss how LGBTQ+ young 
people are over-represented in the foster care system. What 
unique challenges do LGBTQ+ youth face in transitioning out of 
foster care, and how would the Fostering Stable Housing 
Opportunities Act of 2019 help prevent these young people from 
experiencing homelessness?

A.1. LGBTQ+ youth exiting foster care can often face additional 
challenges getting employment due to discrimination of people 
who are gender nonconfirming and therefore may find it even 
more difficult to afford a place to live. LGBTQ+ youth also can 
face discrimination when accessing homeless shelters because 
shelters may restrict access based on gender identity and 
sexual orientation. The Fostering Stable Housing Opportunities 
Act of 2019 would make assistance for youth aging out of foster 
care more widely available, now only 230 of the over 2,200 
housing agencies administer this assistance, and it would allow 
assistance to be extended longer than the current 2 year 
maximum, if youth engage in certain activities such as school 
or employment. However, this bill alone isn't enough. Congress 
must also provide additional funding for Family Unification 
Program (FUP) vouchers to ensure that every LGBTQ+ youth 
exiting foster care can avoid homelessness and have access to 
safe, affordable housing.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
             SENATOR CORTEZ MASTO FROM PEGGY BAILEY

Q.1. If passed, my bill (S. 1804 or ``HUD Manufactured Housing 
Modernization Act'') requires the U.S. Department of Housing 
and Urban Development publish rules mandating that local 
jurisdictions consider manufactured housing when putting 
together their Consolidated Plans. Based on your expertise, how 
do you think local jurisdictions might consider manufactured 
housing in their Consolidated Plans?

A.1. Manufactured housing is often the most readily available 
affordable housing in a community. Local jurisdictions should 
consider all elements of manufactured housing in their 
consolidated plans to ensure that existing housing stock is 
properly maintained and that opportunities to add manufactured 
housing are identified. This includes zoning for new 
manufactured housing to address the affordability crisis and 
homelessness, ensuring community development activities such as 
public transportation, parks, and business incentives, take 
place near manufactured housing, families in manufactured 
housing have access to high performing schools and low crime, 
and community revitalization efforts target older manufactured 
housing stock to ensure that high quality affordable housing 
stays in the community.

Q.2. Based on your experience, what might the impact be on the 
affordable housing crisis if manufactured homes became a more 
mainstream, affordable residential option for home buyers and 
renters?

A.2. If manufactured housing became a more mainstream housing 
option, it could reduce the cost to develop affordable housing 
units and therefore reduce rental costs for families. In some 
communities where land is inexpensive, the cost reductions 
could be significant. Manufactured housing is also quicker to 
develop. There are examples where it has been used to quickly 
address homelessness and housing instability for certain 
populations, such as veterans.

Q.3. Should manufactured home community preservation be a goal 
for jurisdictions? Can consolidated planning help identify such 
communities?

A.3. In communities where manufactured housing is high quality 
and a readily available source of affordable housing, 
manufactured home communities should be preserved. Consolidated 
planning can identify these communities and allow policymakers 
to plan for the infrastructure investments needed to preserve 
homes and maintain quality.
              Additional Material Supplied for the Record
              
              
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
